<html>
<title> - HURRICANE KATRINA: MISSISSIPPI'S RECOVERY</title>
<body><pre>[Senate Hearing 109-711]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-711
 
               HURRICANE KATRINA: MISSISSIPPI'S RECOVERY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                 FIELD HEARING IN GULFPORT, MISSISSIPPI


                               __________

                            JANUARY 17, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





                    U.S. GOVERNMENT PRINTING OFFICE

26-747 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                        James R. McKay, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
        Michael L. Alexander, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Coleman..............................................    12
    Senator Dayton...............................................    14
    Senator Coburn...............................................    16
    Senator Pryor................................................    18

                               WITNESSES
                       Tuesday, January 17, 2006

Hon. Donald E. Powell, Coordinator of Recovery and Rebuilding in 
  the Gulf Coast Region, U.S. Department of Homeland Security....     5
Hon. Mary L. Landrieu, a U.S. Senator from the State of Louisiana    19
Hon. Gene Taylor, Representative from the State of Mississippi, 
  U.S. House of Representatives..................................    22
Hon. Brent Warr, Mayor, Gulfport, Mississippi....................    25
Hon. Edward A. Favre, Mayor, Bay St. Louis, Mississippi..........    28
Dr. Gavin Smith, Director, Governor's Office of Recovery and 
  Renewal, State of Mississippi..................................    31

                     Alphabetical List of Witnesses

Favre, Hon. Edward A.:
    Testimony....................................................    28
    Prepared statement...........................................    59
Landrieu, Hon. Mary L.:
    Testimony....................................................    19
Powell, Hon. Donald E.:
    Testimony....................................................     5
    Prepared statement...........................................    49
Smith, Dr. Gavin:
    Testimony....................................................    31
    Prepared statement...........................................    63
Taylor, Hon. Gene:
    Testimony....................................................    22
Warr, Hon. Brent:
    Testimony....................................................    25
    Prepared statement...........................................    53


               HURRICANE KATRINA: MISSISSIPPI'S RECOVERY

                              ----------                              


                       TUESDAY, JANUARY 17, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., at the 
Mississippi Gulf Coast Community College, Jefferson Davis 
Campus, 2226 Switzer Road, Gulfport, Mississippi, Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Coburn, Lieberman, 
Dayton, and Pryor.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. The Committee will come to order. Good 
morning. Today the U.S. Senate Committee on Homeland Security 
and Governmental Affairs continues its investigation into the 
preparation for and response to Hurricane Katrina. The focus of 
our 10th hearing is on the status of recovery and rebuilding 
efforts in the State of Mississippi.
    I want to thank Mississippi's two senators, the 
Congressional delegation and Governor and Mrs. Barbour for 
their advocacy. I particularly want to thank the First Lady for 
taking us on a helicopter tour today. It was very helpful to 
hear her firsthand commentary as we viewed the devastation from 
the air.
    I also want to very much thank my Senate colleagues for 
joining us here today. We have six Committee Members who are 
here, three Democrats and three Republicans showing this 
bipartisan concern. I want you to know that it's very unusual 
when a field hearing is held to have more than one senator 
present, sometimes two, never six. And I think that is a 
comment about our Committee's dedication to the task before us.
    I'm also extremely pleased to have with us today Senator 
Mary Landrieu from the neighboring State or Commonwealth of 
Louisiana. Senator Landrieu has been an advocate for the entire 
Gulf region, and I'm very pleased that she could join us in 
Mississippi today.
    Two weeks after Katrina struck some 4 months ago, Senator 
Lieberman and I, as well as Senator Landrieu, were among a 
group of Senators who toured this devastated region. We stopped 
in the town of Pass Christian, and I'll never forget what I saw 
that day. The destruction was unimaginable. The suffering and 
the deprivation were heartbreaking. But the courage and the 
determination of the people that we met, as Governor Barbour 
puts it, ``to build back better than ever,'' were then and 
continue to be inspiring.
    At the time of our tour 4 months ago, I said that our first 
priority and our highest obligation were to help the Gulf Coast 
recover from this unprecedented natural disaster. The 
cooperation and the candor of those we met with back in 
September, and of those who have welcomed us here today, have 
greatly aided our understanding of what needs to be done. We, 
in Congress, need to hear firsthand the experiences, the good, 
the bad, and the ugly, of those seeking Federal assistance to 
rebuild their communities.
    Today when we toured the region again, the hard truth 
remains that the devastation is still beyond comprehension. We 
saw row after row of bare concrete slabs where neighborhoods 
once stood. We saw wreckage washed up far inland. We saw 
bridges, the Bay Bridge in particular, that once connected your 
communities that remain still washed away. We looked at the 
mountains of debris, and we heard that about two-thirds have 
been cleaned up. But there still is so much work to be done. 
And when I look at those mountains of debris, I realize that 
each contains all that is left of someone's beautiful home or 
thriving business.
    I know that many people in Mississippi have seen that 
America's attention has often been focused on Louisiana, and 
that's understandable perhaps in light of the grievous damage 
that its residents have suffered, and indeed our Committee will 
be going to New Orleans this afternoon for a firsthand 
assessment.
    But I want to assure you that the losses in Louisiana in no 
way diminish the magnitude of the tragedy that you've endured 
or the difficulties, frustrations, and uncertainties that 
continue to plague your lives. I know that one newspaper 
expressed the fear that Mississippi would become the 
``Invisible Coast,'' and I want to tell you of our personal 
commitment to make sure that all the residents of the Gulf 
Coast receive the attention, the support, and the assistance 
that they need in rebuilding their lives.
    Our Committee hopes, through a series of recommendations, 
to improve our Nation's preparedness and response. We have 
already tried to be of assistance by sponsoring emergency 
legislation to increase the Federal reimbursement for the cost 
of the removal of the unfathomable amount of debris that still 
chokes too many streets and landscapes. But we appreciate that 
the Federal role is far greater than that and that it is a 
continuing role. Your needs are great and they are many.
    The final report of the Governor's Commission on Recovery, 
Rebuilding, and Renewal lays out an ambitious and far-sighted 
plan intended to revive your community, to create new jobs, and 
to ensure that families will be in real homes as soon as 
possible.
    In my visits here, I have been struck first and foremost by 
the utter devastation that Katrina brought to your beautiful 
region. But equally powerful is the commitment of the people of 
this region to help one another overcome the crisis, surmount 
the obstacles, and rebuild for the future. Working together 
with a partnership among all levels of government, I know that 
the Gulf Coast will indeed be better than ever. Thank you so 
much for welcoming us here today.
    Senator Lieberman is the Committee's Ranking Member. We 
work very well together, very closely together. And I'm very 
pleased to recognize him for some opening remarks.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. Thanks so 
much for leading our Committee here. It's an honor, as always, 
to work with you. I thank the other Members of the Committee 
for coming here.
    I hope the people here in Mississippi and then later in 
Louisiana will take this group of Senators' presence here as 
the most tangible expression of the continuing national 
interest and acceptance of America's responsibility to help you 
overcome the effects of this disastrous hurricane.
    I thank Marsha Barbour for greeting us, for taking us up in 
that helicopter to see the Coast today. I would share the 
reaction of Senator Collins. She and I both came here just 
about 4 months ago, a couple of weeks after Hurricane Katrina 
hit. And we were stunned to see the devastation along the 
Mississippi Coast. Perhaps because the--New Orleans is a great 
American city, the focus of a lot of media attention was on it. 
It has suffered grievously, of course. But I don't think we had 
a real awareness before we came 4 months ago of how badly hit 
and devastated by extraordinarily high winds and rising waters 
the Gulf Coast of Mississippi was.
    And I must say, having just gone up in that helicopter 
today, what strikes me is how much work remains to be done. I 
suppose somewhere in the impractical recesses of my brain I 
thought that coming back here today I'd see a lot more going 
up. A lot of debris has been removed. That's real important. 
There's still a lot more yet to be removed. In some sense, 
perhaps because there's a general impression in Congress that 
Mississippi is really organized well to deal with the problem, 
maybe I expected to see more rebuilding occurring.
    But this is by way of acknowledging what Senator Collins 
has said, that we're all in this together. Federal, State, and 
local governments. We feel a national responsibility to help 
Mississippi get back to better than it was before Hurricane 
Katrina. And just seeing the Coast today tells me in a very 
powerful, personal way how much more we have to do.
    In that regard, there's an intangible factor here, which is 
hope. And I hope that we can all reach out, and maybe in some 
small way our presence here today will help do that, to give 
hope to people who, after a period of time, are going to begin 
to lose it about their ability to return to where they were. 
And, of course, this just says to us that the basic mission 
that this Committee has, which is to oversee the work of the 
Federal Government in responding to Katrina, is a critical 
mission.
    We've appropriated well over $80 billion. And the question 
now is how is it being spent and can we move things more 
quickly to bring a reality that will raise people's hopes.
    I understand--I thank the Members of the Congressional 
delegation. Gene Taylor is here. I believe he's going to 
testify. Senator Cochran and Senator Lott and the other Members 
of the House delegation have been extremely persistent and 
effective advocates for Mississippi.
    And we understand that you have special problems. That a 
number of people in Mississippi, 42 percent of all working 
families by one estimate I saw, are low income. And that's the 
highest rate in the Nation. That puts a special burden on all 
of us to work together to try to raise people up after this 
devastation.
    Just a final word. Since we've been here, everybody's been 
saying thank you for coming. I think we owe you a thank you for 
the way in which the people of Mississippi have pulled together 
and for the spirit of--for your spiritual strength, really, and 
for the hopefulness that I hope you will not let diminish as we 
go forward together to make this better. Thank you very much.
    Senator Collins. Thank you.
    I just am going to very briefly introduce the other 
Committee Members by name. To my left is Senator Norm Coleman 
of Minnesota. He's a former mayor, has a special interest in 
the role of local government.
    To Senator Lieberman's right, that's not a usual position 
for you, is Senator Dayton of Minnesota. He's been particularly 
concerned about the responsiveness of the Federal Government.
    To my far left is Senator Coburn, who is a physician by 
training and represents the State of Oklahoma. And he has a 
special interest in making sure that money is being well spent.
    To my right now is Senator Mark Pryor of Arkansas. Senator 
Pryor pointed out to me that his State on a per capita basis, I 
think, had taken in more evacuees from the Gulf Coast region 
than any other State.
    And, as I said, Senator Landrieu from Louisiana is also 
joining us today as an honorary Member of the Committee.
    I'd now like to welcome our first witness. Donald Powell 
was named by President Bush as the Federal Coordinator of Gulf 
Coast Rebuilding on November 1. His task, and it is an enormous 
one, is to develop a long-term rebuilding plan in conjunction 
with State and local governments in the entire region. It's his 
responsibility to coordinate the Federal efforts and to assist 
State and local officials. Prior to this new and very 
challenging appointment, Mr. Powell served for 4 years as the 
chairman of the Federal Deposit Insurance Corporation.
    And I want to point out that in the immediate aftermath of 
Katrina, Mr. Powell, while still at the FDIC, took decisive 
action that helped banks and other financial institutions in 
the devastated region resume operations as quickly as possible. 
And that certainly assisted consumers during those very 
difficult times.
    So I want to thank you, sir, for your service and welcome 
you to the Committee, and I look forward to hearing your 
testimony.

TESTIMONY OF HON. DONALD E. POWELL,\1\ COORDINATOR OF RECOVERY 
  AND REBUILDING IN THE GULF COAST REGION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Powell. Thank you. Thank you, Chairman Collins, Ranking 
Member Lieberman, and distinguished panel Members.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Powell appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    It's a pleasure to appear before you today in Gulfport as 
the Federal Coordinator for Gulf Coast Rebuilding to discuss my 
role as Federal coordinator, the progress that we have made, 
and the challenges and opportunities we face in the immediate 
recovery and long-term rebuilding effort.
    The State of Mississippi is of great historical, cultural, 
and economic importance to this country, and we will make sure 
that her citizens get back on their feet and rebuild their 
lives. Whole communities throughout the Gulf Coast have been 
ravaged by Katrina and Rita, and I'm confident that together we 
will see a better tomorrow for our fellow Americans in the 
affected areas.
    Our job is to identify the priority of needs for long-term 
rebuilding by working with the people on the ground, 
communicating those realities to the decisionmakers in 
Washington, and advising the President and his leadership team 
on the most effective, integrated, and fiscally responsible 
strategies for a full and vibrant recovery. We will then help 
provide thoughtful and coordinated Federal support to the 
affected areas.
    The President has made it abundantly clear that the vision 
and plans for rebuilding the Gulf Coast should come from the 
local and State leadership, not from Washington, DC. This is 
not an exercise in centralized planning. However, we understand 
the importance of being good stewards of the substantial 
amounts of money that have been, and will continue to be, spent 
on this effort. We will ensure that any plans or strategies are 
conducive to the prudent, effective, and appropriate investment 
of taxpayer dollars.
    In order to rebuild after a natural disaster of this 
magnitude, the size of which our country has never experienced 
before, the first task is to recover. We have identified two 
key areas as critical path issues which must be resolved in 
order to move into the next stage of rebuilding in Mississippi.
    The first critical path issue is debris removal. After the 
Gulf waters subsided, Hancock, Harrison--where we are today--
and Jackson Counties were left with more debris than the 1992 
Hurricane Andrew and the 9/11 World Trade Center attack. A 
problem of this scale required strong local leadership. 
Governor Barbour and the local mayors, in partnership with FEMA 
and the Army Corps of Engineers, sprung into action.
    Today, I am happy to report that Mississippi has removed 27 
million cubic yards or almost two-thirds of the total debris. 
There is still a great deal of work to be done, but Mississippi 
is on the right track, with the goal of completion sometime 
this spring.
    The second critical path issue is to support evacuees 
through direct financial assistance and temporary housing. 
Hurricane Katrina left many of our fellow citizens stunned and 
uprooted, and the President believes it is the government's 
duty to remind them that their country cares about them and 
that they are not alone. Of the 450,000 Mississippi residents 
who received disaster assistance following Hurricane Katrina, 
280,000 were approved for direct or transitional housing 
assistance totaling $745 million. Another $300 million went to 
some 115,000 Mississippians for Other Needs Assistance, which 
helps with everything from unemployment assistance to 
relocation services to reuniting victims with their families. 
And finally, more than 100,000 Mississippians received rental 
assistance totaling approximately $230 million, which is going 
to pay for rent at apartments across the region.
    Mississippi has also done an extraordinary job of 
establishing and transitioning evacuees into temporary housing. 
Today less than 2,000 households remain in Mississippi hotel 
and motel rooms. FEMA is already providing more than 31,000 
travel trailers to hurricane victims that are residing in the 
State. Nearly 11,000 of these families in Harrison County, 
8,000 in Jackson County, nearly 8,000 in Hancock County, and 
more than 2,500 in Forrest County.
    We still have very important work to do on these immediate 
issues, but we believe that things are moving in the right 
direction. I am encouraged every day by the strong leadership 
in this State and its successful partnership with Congress and 
the Administration.
    As we transition our efforts from immediate recovery to 
helping with long-term rebuilding, we must achieve three key 
objectives: Restoring long-term safety and security; renewing 
the region's economy and creating growth opportunities; and 
revitalizing communities.
    Congress and the Administration have taken great strides to 
restore safety and security to Mississippi. The most important 
accomplishment is the $29 billion reallocation legislation 
which provides for $10 million for a comprehensive study of 
hurricane and storm protection and $620 million for flood and 
storm protection projects across Louisiana and Mississippi.
    The President, along with the Congress, has also been 
focusing on the renewal of the region's economy. Last month the 
President signed into law the Gulf Opportunity Zones Act. The 
legislation will help revitalize the region's economy by 
encouraging businesses to create new jobs and restore old ones. 
The law will also create new housing initiatives for workers to 
return home and will help finance new infrastructure to get the 
region moving again. Simply put, the law renews businesses, 
rebuilds homes, and restores hope.
    In terms of providing loans and working capital to small 
businesses and families, the SBA has also been working 
diligently to ramp up its capacity in response to the disaster. 
As of January 12, the SBA has approved over $2.64 billion in 
disaster loans to almost 38,000 homeowners, renters, and 
businesses in the affected region. In Mississippi, the total 
has been over $1 billion; 12,000 home loans for $860 million 
and close to 2,000 business disaster loans for $170 million.
    Workforce development will also be critical to long-term 
economic security. The Secretary of Labor and I attended a 
meeting just before Christmas with the President, labor 
leaders, civil rights groups, and business associations to 
discuss workforce initiatives and overall employment issues 
facing the region. We tasked those leaders to devise a plan to 
prepare the workers of the region for the future of the Gulf 
Coast.
    We are also focusing on revitalizing communities. The 
ravaging winds and waters brought on by Hurricane Katrina 
claimed the homes of many along the Gulf Coast. Congress and 
the Administration have taken several steps to return old and 
invite new residents to Mississippi's neighborhoods.
    The most direct of those steps is $11.5 billion in 
Community Development Block Grants and $390 million in housing 
vouchers allocated to the people of the Gulf Coast in the 
recently passed $29 billion reallocation package. Mississippi 
plans to use the bulk of its share of the $11.5 billion to 
compensate affected under- or uninsured homeowners who resided 
outside of the flood plain.
    Aside from the housing aid and other public assistance, 
nearly 400,000 inspections have been completed in Mississippi 
and 48,000 roofs have been temporarily covered by FEMA's Blue 
Roof program operated by the U.S. Army Corps of Engineers. FEMA 
has provided over $1 billion directly to Hurricane Katrina 
victims in Mississippi through the Individuals and Households 
Program. In addition, 13,800 Mississippians have received $1.8 
billion in National Flood Insurance Program claims. These 
families are and will continue to fill the streets, schools, 
and places of worship that will be a critical component to the 
revitalization of this great State.
    Another important part of the community is the educational 
system. Education is the key to the future and lets every 
American reach his or her potential dream. Without education, 
we would not have the American ingenuity that has made our 
country so successful. Thus far, Mississippi has received $100 
million to get its educational system up and running again 
since the storm hit. And schools who took in the displaced 
students outside the State are being reimbursed up to $6,000 
per displaced student in general education and up to $7,500 for 
those in special education.
    The Administration and Congress have made good on the 
promise by helping secure $1.6 billion for the schools that 
were hardest hit by the hurricanes. The U.S. Department of 
Education is expediting these resources so they can get to 
where they are needed as quickly as possible. Thus far, 93 
percent of the schools in Mississippi are up and running. 
Overall, the Mississippi Department of Education reports that 
they have 22 schools that are closed and 12 other schools that 
are open on a limited basis. One part of the building may be 
under repair, but another part is being used to educate the 
State's learners. I applaud those efforts. As my good friend 
Secretary Spellings put it, ``The education community's 
response to Katrina has been overwhelming. Schools across the 
country have opened their doors and hearts to these children.''
    Community health is also important. That's why the 
Department of Health and Human Services, along with other 
agencies, quickly streamlined their processes to help hurricane 
victims access the many Federal programs available immediately 
to help them get back on their feet, such as Medicaid, family 
assistance, child care support, foster care assistance, and 
mental health and substance abuse services. More than 40 
percent of the storm's evacuees living in a different zip code 
from the damaged areas received these types of benefits and 
services.
    In addition, the U.S. Public Health Service Commissioned 
Corps, one of the Nation's seven uniformed services, carried 
out the largest mobilization in its 207-year history by 
deploying more than 1,400 officers to work with State, local, 
and private agencies in the hurricane-stricken States. America 
is committed to helping our citizens displaced by the storms by 
improving our government's outreach and cutting red tape.
    Infrastructure is also a key component of any long-term 
recovery plan. Federal funds totaling $750 million are being 
used for infrastructure in Mississippi for repairs to damaged 
roads, bridges, and other transportation uses. I am glad to see 
the progress made with those monies here, such as the two lanes 
that have been completed from Debuys Road to English Place for 
a total of eight miles in the Long Beach-Gulfport region.
    And in Pass Christian, two lanes have been completed from 
Shadowlawn Drive to Henderson Avenue for a total of 3.7 miles. 
The I-90 is the next major thoroughfare to be rebuilt, and it 
will help restore the region's transportation network. 
Virtually all major freight lines are open, with the exception 
of the CSX Transportation line from New Orleans to Pascagoula.
    In terms of public transit, partial service has been 
restored in Gulfport, Biloxi, and the City of Picayune, with 
full service restored in Jackson. The nine airports that were 
damaged by the storm are now either fully operational or open, 
but may be limited to visual and daytime operations.
    The ports along the Mississippi Gulf Coast are also all now 
operating in some capacity, and we will continue to work to get 
them fully operational. Gulfport was the worst hit of all ports 
and has two piers that are back in operation.
    In closing, I would like to note that the Gulf Coast has a 
strong history of overcoming adversity caused by Mother Nature. 
Spanish explorers as far back as the 1500s wrote about how the 
area has experienced severe floods. But every time some type of 
natural disaster has hit, the people in this region have come 
back and come back stronger than before. Failure is not an 
option. As the President said last week, ``When people are 
determined, they get things done.'' He also repeated his 
promise to the region that it would ``not just survive, but 
thrive.'' He said, ``we're not just going to cope, but we will 
overcome.'' Thank you.
    Senator Collins. Thank you very much for your testimony.
    You have described your position as being the President's 
eyes and ears but not his arms. I thought that was a very 
descriptive way to describe your job. Your position was created 
through executive order, not through legislation.
    Could you tell the Committee whether you feel that you have 
adequate authority to coordinate all the Federal resources to 
help in rebuilding? You don't really have troops. You have the 
power of persuasion. You have the President's confidence, but 
you do not, as I read the executive orders, have the ability to 
actually order an action.
    Mr. Powell. Yes, no command and control.
    Senator, I'm convinced, and I believe in my short tenure of 
40 days or so that I have the complete support of all agencies 
and departments of the Federal Government. I have been in 
contact with every agency, every department within the Federal 
Government and have experienced great cooperation from the 
Department of Transportation, Education, to wherever it may be.
    As you said, I have the power of persuasion. And also the 
President is committed, everybody knows that the President is 
committed to rebuilding the Gulf Coast. I'm convinced that I 
can--and with the members of my staff, that we have the 
necessary resources to fulfill our mission.
    Senator Collins. Would it be easier to do your job if you 
had more specific authority over the allocation of resources 
and personnel?
    Mr. Powell. At times, yes. At times it would be, absolutely 
it would be. But I don't think that will restrict me from--I 
know it will not restrict me from expressing my views and 
thoughts. And I always have a sense of urgency about things, 
and I'm not shy as it relates to what I think needs to get 
done. And to date, the cooperation is extraordinary.
    Senator Collins. You mentioned in your testimony that some 
27 million cubic yards of debris have been removed at this 
point. FEMA's most recent report to Congress suggests that 
there's still some 19 million cubic yards yet to go.
    Mr. Powell. Right.
    Senator Collins. And as we toured the area today, we could 
still see mountains of debris, really widespread cleanup 
problems. This was also an issue that has been raised to us by 
Mississippi's two Senators and by people in the region, the 
Governor and his wife as well.
    In your view, is sufficient Federal funding and effort 
allocated toward debris removal? And can you give us any idea 
of any time line for completing the basic cleanup?
    Mr. Powell. I am in constant contact with the local people. 
The governor and I talk often. I have visited with four mayors 
along the Gulf of Mississippi within the last 10 days. There's 
always a certain level of tension and frustration about debris 
removal.
    The laws that are on the books today sometimes serve as--
there's just tension between the private property rights and 
there's tension between the debris and the removal of debris 
issue. But--and part of it also is, I think, the mayors' 
concern about doing the right thing. I mean, they have also the 
tension of getting the debris and they have the tension of are 
they going to be audited 6 months from now, 2 years from now, 
or 3 years from now. And they want to follow the law.
    Empowering people to make decisions in the field, Senator, 
is terribly important. The mayors know their communities better 
than anybody else. Allowing them to make decisions about hiring 
and firing contractors is critically important. So when I sit 
and talk to them, I try to facilitate those decisions that will 
empower them to make the best decision for their communities. 
And there are times that I see we can do it better. But I'm 
convinced that, again, as I said, the mayors are the right 
people to make those decisions. The State officials are the 
right people to make those decisions. And I think the resources 
are there. It's a matter of just getting it done and also 
complying with all the rules and regulations and laws is mind 
boggling as it relates to that in just my short tenure.
    Coming from the banking business, I understand and 
appreciate that, but somehow we've got to empower those people 
to make decisions based upon facts as they see them, 
understanding that they're going to make some bad decisions.
    But to answer your question directly, as I said in my 
testimony, the majority of the public debris will be removed, 
and the private issues, the private debris is another issue, 
but I think also that will be done perhaps in the late summer 
or early fall.
    Remembering as I said in my testimony, in Hurricane 
Andrew--the three counties here had more debris than Hurricane 
Andrew and the 9/11 tragedy combined, and it took them 2 years.
    Senator Collins. The March 15 deadline that's been talked 
about for removing most of the debris is a very important one 
because that's the date by which the 100 percent Federal 
reimbursement expires, so I think it's really critical----
    Mr. Powell. Right.
    Senator Collins [continuing]. That we reach that deadline.
    Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman.
    Mr. Powell, thanks for being here. Thanks for accepting the 
President's call to service. It's been a real pleasure for me 
personally to get to know you in this work. Somehow I never got 
to meet you when you were head of FDIC, so it's been a pleasure 
here.
    I do want to briefly say that I think Senator Collins 
raised some really important questions about the authority of 
your office, and we should continue that discussion because, 
again, just coming away from seeing what an enormous task it's 
going to be, and it's not going to happen overnight, to rebuild 
right here on the Mississippi Gulf Coast. The question is 
honestly whether the President needs somebody in your position, 
yourself, to not only be his eyes and ears but also be his arms 
because Hurricane Katrina, by my estimate, is the largest 
humanitarian crisis America's had probably since the Great 
Depression. I know we've had terrible hurricanes. We had the 
attacks of 9/11. But in terms of the scope of the impact on our 
country, I can't think of one larger since the Great 
Depression, so I'd like to continue that discussion.
    I'd like to ask you a few questions that we've heard from a 
local level right here in Mississippi, and my guess is we'll 
hear them on the second panel, which includes a couple of 
mayors. The first is about the flood maps and elevations, but 
probably you're familiar with this question.
    And I've now heard two different reactions to the advisory 
flood plain guidelines developed by FEMA. The mayors, who will 
testify later, have told us, and I presume will again, that 
many of their citizens will simply not be able to afford to 
rebuild at the base flood elevations, the specific heights 
required in FEMA's advisory guidelines. Others praise the new 
maps and advisory guidelines because they acted quickly, FEMA 
did, in getting them out, and they've given the residents some 
sense of standards that they should be building to.
    Do you believe that FEMA is on the right track or are you 
also concerned about the adverse impact on the ability of many, 
particularly low and middle income homeowners, to rebuild?
    Mr. Powell. I think FEMA is on the right track, Senator, 
but I am concerned about your latter point. But we're not going 
to be able to rebuild until those maps get out in the 
marketplace.
    I think that's the reason the advisory maps were important 
for some of these people who are ready to rebuild, and unless 
they get a building permit, they can't begin construction. And 
the city is not going to give them a building permit until 
those maps are out there. So I think it's important those maps 
be in the marketplace, but I also share your concern about the 
cost associated with rebuilding. And I'm going to look at 
some--I think there may be some Federal programs that would 
assist some of those folks in that rebuilding effort.
    Remember, too, that Congress is going to be looking at the 
whole flood insurance issue, which I will tell you probably 
that will call for increased premiums. So if the homeowners are 
going to have to, first of all, spend more money on rebuilding, 
and then he or she is going to have to spend more money on 
premiums, so they're going to have an economic double whammy 
there. In order--certainty, we've got to give these people 
certainty so they can get on with their lives.
    We have a meeting right after this hearing this afternoon 
in this community that we have invited, through the mayors, the 
local mayors, bankers, insurance agents, building inspectors, 
code enforcement folks, and we're going to try and bring 
clarity to a lot of questions that people are asking. I think 
that's my role here to get that done.
    But I think FEMA is on the right--they've got to issue 
these flood maps.
    Senator Lieberman. I appreciate your answer and 
particularly your opening of the possibility of some Federal 
assistance----
    Mr. Powell. Yes.
    Senator Lieberman [continuing]. To those low and middle 
income homeowners----
    Mr. Powell. Right.
    Senator Lieberman [continuing]. Who cannot build to the new 
standards, and I think we should work together on that.
    The other local concern that we've heard, and I presume 
will hear again, is this terrible box that the communities are 
in with enormous responsibilities, but because of the impact of 
the hurricane, there is a devastated tax base. And, actually, 
folks turn to us at the Federal level, and I don't have a quick 
answer to that. I wonder if you've thought about it.
    And is there any Federal role in trying to assist local 
communities devastated by Katrina over this period in their 
history when they just don't have the tax base to raise the 
money to do what they need to do?
    Mr. Powell. Community Development Block Grants, there's 
some other government programs. Being new in this area, I've 
got someone who has done nothing but looking at ways to meet 
that need that you're talking about. But, ultimately, the most 
important thing, Senator, is rebuilding their lives.
    And that's the reason it gets back to debris removal, it's 
housing. I told the President it's housing, housing, housing, 
which then equals jobs and economic activity into the tax base. 
Until these people can begin to live, can begin to rebuild, 
which will create jobs, tax base, the economy. These cities 
will come back. I know there are some areas that they're 
beginning to rebuild.
    Senator Lieberman. Do you think that we have ended the 
appropriation of Federal money in response to Katrina or will 
there be a need for more beyond the $85 billion? I gather the 
$25 billion has pretty much been spent, from what I've heard, 
and there is $60 billion in various stages of the pipeline.
    Mr. Powell. Senator, I'm not sure. I haven't done the math. 
Hopefully, that will be enough. The homeowner--what Governor 
Barbour is doing, as I mentioned in my testimony, with the 
Community Development Block grants will put money in the hands 
of the uninsured. I think that's a big, big step, a huge step. 
There are different challenges in Louisiana as relates to that. 
There's more infrastructure needs in Louisiana. I'm not sure. 
Hopefully it is enough.
    Senator Lieberman. Fair enough. I appreciate the answer. I 
think we've all got to stay involved here. And if there is a 
need for more money, then we've got to be willing to work 
together to provide it. Because the fresh development today is 
that this is unfinished national business, and we've got to 
stick with it until it's done. Thank you very much.
    Mr. Powell. Thank you.
    Senator Collins. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman, and Senator 
Lieberman, thank you for your focus, your leadership, your 
commitment. It really is extraordinary. This merits that. They 
say sometimes you have to see it to believe it. I have seen it, 
and it's still pretty hard to believe. The sense we have 
amongst us was that there was a bomb and a massive war zone, 
and the devastation really is overwhelming.
    I thank you for your service, and I appreciate your 
perspective that you noted that mayors and the State officials 
are the people to make the decisions, we appreciate that.
    Certainly the Federal Government, in particular FEMA, took 
a real hit in Katrina post actions, and there are questions of 
competency. What's your assessment now in terms of local 
officials and folks on the ground and their sense of the 
Federal effort?
    Mr. Powell. I think it's mixed, Senator, and literally it 
depends upon the subject matter. I think there's a lot of 
frustration. But I think--and as we go forward, it gets better. 
I hear a lot of frustration about the SBA. As a former banker, 
I can appreciate it and understand that. Having said that, in 
talking to the officials at the SBA, I think there's some 
constraints that they have on themselves. My idea of that, 
again, the more you can put it in the hands of bankers to make 
those decisions, they know the communities, they know the 
creditworthiness of their people. They can act fast. But the 
law didn't permit that to happen except up to $150,000 in some 
cases to meet those needs.
    I think debris removal is another issue there's always 
frustration about. Again, local decisions empowering the people 
in the field, and that would be Federal officials also. The 
more we can empower those people to make decisions without 
checking with someone, the better off we would be.
    I used to have the saying in banking, ``a quick no is 
better than a 2-week yes.''
    Senator Coleman. If there are legislative barriers, if 
there are institutional barriers, I would hope, even though you 
don't have command and control, that you have the sense that 
you can talk to us and others, but don't allow the bureaucracy 
to kind of feed that frustration.
    Mr. Powell. Right. I will express my views on that.
    Senator Coleman. You mentioned CDBG. I just want to touch 
on that.
    A question was asked about the continued Federal role and 
some of the things we can do different. CDBG is a valuable 
source to folks at the local level. When you talk about CDBG 
funding, are you talking CDBG within the existing process which 
has a finite limitation on dollars, when, in fact, many of us 
have been involved in trying to increase funding, trying to 
avoid cuts, or are you talking about the CDBG process with some 
of the Katrina money as a separate pot?
    Mr. Powell. The latter. As I understand it, the $11.5 
billion that Congress approved for those grants, and the law, I 
think, has passed, no one could receive more than 54 percent. 
Then working with the Secretary of HUD, that money goes to the 
Secretary of HUD, and he develops the guiding principles that 
the States can use, what they can use that money for. Again, as 
I mentioned, Mississippi has already indicated what they will 
use that money for.
    Senator Coleman. With all the needs--and obviously debris 
removal is something that we were talking about here. As you 
look into the future, when it's rebuilt, it's got to be rebuilt 
right. The Governor's commission has done an excellent job of 
tapping into local perspective in laying out a vision. But 
turning that vision into reality is sometimes very challenging. 
There are folks at the local level planning, just basic 
planning and turning that into reality, and those are the 
things which there aren't a lot of dollars for. I mean, you 
have got many needs, you have got to take care of them.
    Mr. Powell. Yes.
    Senator Coleman. How do you help local communities do their 
piece, do the planning so that in the end when it's done, it 
really is done right?
    Mr. Powell. Well, I think the model that Mississippi used, 
and I applaud the Mississippi model, is their planning process, 
the Governor appointed Jim Barksdale to lead their commission. 
It was a centralized effort. And he reached out by issue and 
had team members for the issue, be it economic development or 
health issues or education issues, and had folks come in. They 
had a master plan. I think they did a very good job. But that 
was funded by private resources.
    So I think cities are going to find, if they cannot get the 
Federal Government to assist them in the planning, that it will 
be an opportunity for some private charitable organizations to 
fund those. And I think the money's out there for that need.
    I think, for instance, the City of Gulfport, if they need 
some external money as it relates to their planning process, I 
think there are charitable foundations that would be willing to 
assist them. And I think also there are firms pro bono who 
would be willing to assist those communities also.
    But the State has one central, one vision, one plan that 
they are implementing. And they did it in a relatively short 
period of time, and there was extraordinary leadership there.
    Senator Coleman. Oftentimes the further you get away from 
the event itself, the lesser the outside focus.
    Mr. Powell. Right.
    Senator Coleman. National, international focus, volunteers, 
and private sector--as we look into the future--I understand 
this is a very long-term effort.
    Mr. Powell. Right.
    Senator Coleman. Are those private dollars, foundation 
dollars, that outside generosity are still flowing in this 
direction?
    Mr. Powell. It is. I receive calls, Senator, from time to 
time, not like I did when I first started the job, but I 
receive calls not only from individuals, but from foundations 
saying they want to help. Where are the gaps? Where is the 
government not going to meet the needs? What can I do? They 
want to send people to help, which is another little bit of an 
issue from an ethics standpoint. I can't accept volunteers that 
have technical expertise. I talk to them a lot. But that's 
important. There are people willing to help. There are 
foundations that are willing to help. And they're very genuine. 
So I think there's still foundations out there that would do 
that.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Senator Collins. Thank you. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman. I want to thank 
you and the Ranking Member for your leadership on this 
Committee and bringing us here today. Thank you very much.
    Coordinator Powell, I thank you for taking on this 
Herculean task. I understand that you have been here just in 
the latter part of this effort to date.
    I was told on the way over here that the most popular 
bumper sticker right now around here is FEMA, Federal Emergency 
My Ass.
    Mr. Powell. I've seen those.
    Senator Dayton. All right. Well, it doesn't jibe with this 
data here, and I'm trying to figure out where is the 
disconnect.
    You talk about--and I'm not questioning the figures, but 
280,000 residents receiving $2,600 apiece for transitional 
housing and 100,000 receiving rental assistance, that's $2,300 
apiece, 12,000 home loans of SBA, $70,000 a house, 2,000 
businesses asked for loans, $85,000 per business. It just 
doesn't jibe. And I note here also that the--anticipating the 
future testimony of the Mayor of Bay St. Louis, that your life 
is already too complicated for those in need.
    We had them on a much smaller scale. Up in Northern 
Minnesota, the City of Roseau was devastated by flooding. And I 
had that perception myself, that these forms, the procedures, 
very bureaucratic, very cumbersome, and for people who are 
already stressed out, lost their home, lost their business, 
whatever, that we need to make this process simpler and faster 
for them.
    I think it's critical that we get from you, and others that 
have been involved here, some really clear specific 
recommendations for what in the laws need to be changed and the 
regulations so we can clear out as much of that flotsam as 
possible for the future because if there's ever a time when our 
citizens need government and need it to be there and be 
responsive immediately, it's in the face of this kind of 
disaster. And I just don't think that it seems that the people 
here feel that they're getting that.
    Mr. Powell. Senator, I would just add one thing. Empower 
the FEMA officials to make decisions. They tend to have 
accountability; they don't have authority.
    Senator Lieberman. The ones on the ground, you mean?
    Mr. Powell. The ones on the ground. I've spent an all-day 
session talking with the FEMA folks because that's what I've 
been doing, I've been talking to a lot of citizens. I would 
talk to the lady in the restaurant. I would talk to the guy 
repairing my shoes. I would talk to a lot of folks. And I asked 
them about what happened to their homes. Each of them has a 
unique story. Some of them are complimentary to FEMA, most are 
not. And it's really a time frame. And when you ask--when you 
get down and ask them about what their specific frustration is, 
it's common sense, Senator.
    But the law doesn't allow FEMA to do that, make those 
decisions. I understand probably when the law was made, there 
were various issues. There's always tension there. But what you 
get, you get paralyzed. They're paralyzed in the field from 
helping people. And it's terribly important to allow people to 
make decisions.
    And recognize and understand they're going to make some bad 
decisions. But then when you have an auditor or an inspector 
general or whatever 2 or 3 years from now, you're very careful. 
And what happens, that's important too. It's very important 
that we be wise and we be good stewards of taxpayers' money. 
We're all taxpayers. And that's, I promise you, part of my 
focus. But it's also important to help people and to meet their 
needs in a timely, efficient way.
    Senator Dayton. Madam Chairman, I would submit that is one 
of the cruxes of the challenge we face and one of the--if there 
is going to be a silver lining to this enormously dark cloud, 
so that we can learn from your experience coming out of the 
private sector, see how we can free up so that we can 
accelerate the timetable in the future and simplify the process 
for the victims of these disasters. And I thank you for that.
    The recent issue of the National Journal says, and I'm 
quoting here, ``Complaints about the structure of FEMA's waste 
contracts''--this is moving away these many tons of debris. And 
I was impressed, let me say, in the article about the care 
that's going into segregating the hazardous materials and the 
like. I think that's something that deserves a great deal of 
credit. It means things are going to take longer. But it says, 
``FEMA hires the Army Corps, which hires national contractors, 
who hire local subcontractors, and that guarantees that the 
hauling price will be marked up several times. Local haulers 
who are hired directly, critics contend, could do the job more 
cheaply. A FEMA official in Mississippi said the recovery''--
well, it starts another point.
    Is there some reason that there can't be this direct 
contracting that would make it more cost effective?
    Mr. Powell. No, sir.
    Senator Dayton. All right. I almost stopped 51 seconds 
early.
    Senator Collins. Thank you. Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Madam Chairman.
    I want to kind of follow along that line. One of the things 
that Senator Coleman and I, as well as the Ranking Member and 
Chairman of this Committee, wanted to see was a Federal 
financial manager over all this reconstruction. And your answer 
in terms of, well, there is no requirement that they couldn't 
have contracted directly with local contractors. Who's in 
charge? Who makes the decision?
    The people of Mississippi would like to have the help, and 
not only are there fewer dollars spent on the people of 
Mississippi, but the time that it takes--by the time you go 
through four layers of bureaucracy in contracting versus the 
time you take from one layer. And so my question of the 
Administration, who's in charge? Who makes the decision that 
we're going to use four layers instead of one?
    Mr. Powell. Well, again, you must remember, I'm new here 
about 30 or 45 days. Here's my understanding. I think the 
mayors are empowered to make those decisions. Now, they may 
tell you that's not right when they come up here.
    But part of it also is the intimidation factor, Senator. By 
that, I'm talking about the intimidation factor, they're 
concerned about also when they issue a contract with the 
private sector, and then here comes an auditor 2 or 3 years 
from now, and they have liability and have money that they owe 
back to the Federal Government for mismanaging that contract, 
they're going to take the path of least resistance. They're 
going to say, I'm going to follow the standard and deal with 
the Corps where I'm protected and I have an insulation. Again, 
they can answer that better than I as relates to that, but I 
told a mayor last week, I said, fire the Corps and get the 
private sector. Now, that's easy for me to say where I was 
standing. In the field, it's probably there are some other 
things that I didn't have an appreciation for and understanding 
as that mayor--as he or she takes responsibility for those 
actions.
    Senator Coburn. In your position--Senator Collins addressed 
this a little bit, but who is responsible down here for the 
overall Federal expenditures and response in Mississippi?
    Mr. Powell. I can tell you who FEMA----
    Senator Coburn. No. Who in the Administration is 
responsible? What the Senate was trying to do is have one 
person that all this went through that the State could look to 
and the Congress could look to and the government agencies 
could look to. We want a manager here that is making smart 
decisions--that could say, you can take help from volunteers, 
that you don't have to contract through the Corps, and that 
word goes. In other words, to do it on a management basis on 
the basis of need and common sense instead of bureaucracy and 
incompetency. Who is responsible?
    Mr. Powell. Well, it depends again on what issue you're 
talking about.
    Senator Coburn. That was my whole point, there is not one 
person----
    Mr. Powell. Right. I mean, because it depends upon 
transportation issues, it depends upon health issues, it 
depends upon----
    Senator Coburn. That's exactly what's wrong with the 
response.
    Mr. Powell. That recovery as it relates to temporary 
housing, I can get specific. If you ask me certain things that 
if I don't know the answer, I can find out specifically who is 
responsible for that issue.
    Senator Coburn. So my question to you, you have not been 
charged to be that person who is responsible for the Federal 
Government's response in Mississippi? Also, you don't have the 
authority to do that and you've not been charged with that?
    Mr. Powell. I'm the coordinator.
    Senator Coburn. And your authority----
    Mr. Powell. I may not have responsibility, but I'm the 
coordinator.
    Senator Coburn. You have no authority?
    Mr. Powell. Well, I have the power of persuasion and I have 
the power of the office itself, but I can't--I cannot say, 
``Thou shall not do the following.'' I do that.
    Senator Coburn. It would just seem to me that the people of 
Mississippi would love to have a web site and a person who was 
in charge for the Federal Government, and the people in the 
Federal Government would love to have a clearinghouse of one 
person.
    Mr. Powell. Let me be sure, there's a FEMA person that is 
in charge of Mississippi. There's a FEMA that's in charge of 
Louisiana. And then there are people, depending upon what 
you're talking, flood maps, there's a flood map person that's 
in charge. There is a debris person that's in charge.
    Senator Coburn. I understand.
    Mr. Powell. All those.
    Senator Coburn. We're running this just like we run the 
rest of the Federal Government without any basis in common 
sense. And it just would seem to me that the Administration 
would want to land the authority and the responsibility in the 
same place so that you could have one area where information 
flows and people can get answers.
    Mr. Powell. Yes.
    Senator Coburn. In Washington. And the big answer is that 
you can't get an answer to the question. What is the 
Administration's answer to the fact that nobody can get an 
answer?
    Mr. Powell. Well, let me just tell you, if you have a 
question for any of the people of Mississippi, I'm going to be 
able to answer that question. They may not like the answer, but 
I'm going to answer it. And I'm going to find the person, 
individual, entity that can answer those questions.
    Senator Coburn. But there is not a one-stop shop? There is 
not--and there's not a web site up where they can go and find 
out, here's the answer to the 100 most commonly asked questions 
by the people of Mississippi in relation to this disaster? 
There's not a web site up that says here's where our money is 
being spent and here's how efficiently it's being spent? And 
people can track where their money is being spent. There's no 
information out there where they can actually see it, the 
people of Mississippi?
    Mr. Powell. I think there is--again, I should not be saying 
this, I'm not sure it's true, but I think you could find it on 
the FEMA web site and the Department of Homeland Security how 
much money has been spent toward different issues. I mean, I 
got that information.
    Senator Coburn. Madam Chairman. Thank you.
    Senator Collins. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman. I really don't 
have any questions, just a couple comments. And that is that 
these are real people we're talking about here, and these are 
lives and communities that need to be put back together. And I 
would just encourage you and your office to carry the message 
back to whoever you need to carry it back to; please try to 
straighten things out because we flew over today, 4\1/2\ months 
after the storm hit, and I know people in this area are working 
around the clock. They're doing the very best they can do given 
what they have to work with. And they still have a long way to 
go. And they need their Federal Government. They need their 
State Government, their local governments to all be working 
together and working smart. And my impression is that the 
Federal Government is really the problem. And I don't think 
it's always been that way at FEMA.
    I think back in the days when James Lee Witt ran that 
agency, you didn't hear these type of complaints. I mean, it 
wasn't perfect, but one thing he did is he empowered people on 
the ground to make decisions. And like you said, sometimes they 
make the wrong decisions, but he empowered them on the ground 
to make decisions. There is nothing in Federal law that says 
they can't do that. The way I look at it is, it's a problem for 
the leaders in FEMA and probably Homeland Security. And it's a 
problem with the priorities that they have and sort of the 
culture that's there right now. James Lee Witt had a culture 
where he had a can-do attitude. He wanted people on the ground 
that had can-do attitudes. They were going to get down there 
and work it out and work through it, and they'd figure out all 
the audits and all that stuff later. FEMA would come back and 
help the cities, the counties, the State, etc. with that as 
well. But the idea was to serve people and help people. And I 
think somehow or another in the last few years that's been 
lost. So I would just encourage you to carry that message back 
and work with us. Because I know that our Chairman and Ranking 
Member, they're going to work this Committee pretty hard this 
year to try to make things a lot better at Homeland Security, 
make things a lot better at FEMA, and try to do the right thing 
for the Gulf Coast.
    Mr. Powell. Senator, I appreciate that, and I will do that.
    And just one comment. There are some wonderful, dedicated 
public servants in FEMA. I've met them. They have been working 
tirelessly. They don't see their families. They don't get paid 
overtime. They get paid overtime, but it's reversed back.
    They too have frustrations. There are some things, and as 
other members of the panel have suggested which I will do, 
about some laws that can be changed that will help them do 
their job. But there are some wonderfully dedicated public 
servants that I have a new appreciation for after sitting down 
and talking to them and listening to them. I've spent lots of 
time listening to them. I was in Baton Rouge Saturday all day 
listening to the FEMA folks, but your point is well taken, and 
I will do that.
    Senator Pryor. Well, I agree with what you're saying. There 
are a lot of fine public servants there because I've met some 
of them, too. We've met some of them in the Committee.
    Back when folks from Louisiana and Mississippi were 
flooding into Arkansas in early September of this year, I met 
some of them there, too.
    And a lot of these were not full-time FEMA people; they are 
minutemen, so to speak. They sprang into action; their heart, 
their dedication was amazing. And they had a lot of 
frustrations. And that frustration is really unnecessary. And 
you come out of the private sector, you know this. In the 
private sector if you don't fix it, you go out of business.
    And that ought to be the approach that FEMA takes. If they 
can't fix it, they need to get new people in there who can.
    Thank you.
    Mr. Powell. I agree.
    Senator Collins. Thank you. Senator Landrieu.

TESTIMONY OF SENATOR MARY L. LANDRIEU, A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Landrieu. Thank you. Just briefly. I'd like to 
support the comments made by my colleague Senator Pryor. He 
couldn't have said it any better, so I won't repeat it.
    But having said that, I also want to agree with you, 
Chairman Powell, there are some very good people in FEMA that 
are here on the ground and have been and are trying to help. 
But, clearly, the system needs to be improved substantially. 
And I think your ability and the willingness that you've shown 
here in Mississippi and in Louisiana to listen so that you can 
make some tough suggestions to this Committee would be 
extremely helpful to that effort.
    I want to thank the Chairman and the Ranking Member for 
working so hard in such a truly bipartisan way to fix so many 
of the things that are broken or not in place to help the 
people of our two States that are suffering the worst natural 
disaster. Not to leave out Alabama and Texas, but the bulk of 
the destruction, as you know. And truly their effort is without 
peer in the Congress. And having known both of these leaders 
for so long, I just want to publicly thank them for their 
tremendous and sincere spirit and the work of their staff.
    Let me ask just a few questions briefly. One, we have a 
tendency in Washington, which I think is wrong, to try to say 
one size fits all for everything we do. One kind of this, one 
kind of that. Everybody's got to use it.
    Based on your experience on the ground along the Gulf Coast 
from Texas, Mississippi, and Alabama, could you just share with 
the Committee your one or two observations of the differences 
of the destruction so that this Committee could focus a little 
bit, not that they don't, but even a better focus of the kinds 
of different strategies that we might need to look for over the 
next year particularly as we continue this strong, hopefully 
stronger Federal partnership. So in terms of the destruction 
between--and I'm not looking at how many houses or anything, 
but just your sense of does this one size fit all approach work 
or should we have a little different strategy for Louisiana or 
Mississippi in certain areas? What are your thoughts about 
that?
    Mr. Powell. Yes. The uniform notion that I--and I continue 
to repeat it--I think that strategy for rebuilding needs to be 
a local decision. The President made that very clear to me, and 
I agree with that assessment. I think it's very important that 
the local people plan their future.
    Mississippi is different than Louisiana. I always say West 
Texas is different than East Texas. In Louisiana, you have the 
levee system. You don't have the levee system per se in 
Mississippi or Alabama or Texas. The levee sent--just that 
issue itself, one size doesn't fit all. It was overwhelming to 
me, terribly complex about the levee system. I discovered 
everybody is an expert in the levees, as I shared with you.
    But that issue of how to rebuild the levee systems and how 
to protect against future hurricanes is very complex. It 
involves more than levees, as you know, Senator. It involves 
canals, it involves pumping stations, it involves wetlands, the 
whole hurricane protection. And Congress has allocated some 
money that we need to spend to look at the entire question of 
how do we prevent future hurricanes such as Katrina.
    Mississippi has unique challenges because, again, that was 
the surge--the storm surge that we've never seen before in our 
history. So there are unique challenges as it relates to that. 
And the cultures of the two States, obviously, are different. 
And in Louisiana, you have the levee boards. In Mississippi, 
the local governments all have a mayor--and it's more 
complicated in Louisiana. So it presents different challenges 
as relates to not only hurricane protection, but how you deal 
with local authorities. One size probably doesn't fit all 
sizes.
    Senator Landrieu. And let me just say I appreciate that 
because I think sometimes in Congress we look to, well, if it's 
working here, why isn't it working there. And I think what I'd 
like to observe is the Chairman has quickly appreciated the 
differences between the States as the waters have been higher 
in certain areas, first from flood surge and second from levee 
breaks.
    The final question--and I don't want to take too much time. 
Have you given some thought on the flood insurance and mortgage 
issue, which is so frustrating to people? As you know, the 
greatest asset that most Americans own is their home, and 
whether your home was $100,000 or $1 million, it was your home.
    Mr. Powell. Right.
    Senator Landrieu. And it's gone.
    Mr. Powell. Right.
    Senator Landrieu. And when you are fortunate enough to be 
able to collect your insurance, if you had a mortgage, it goes 
to the mortgage company.
    Mr. Powell. Right.
    Senator Landrieu. And you're there then with a house you 
can't live in. The plans aren't there. Have you given thought 
as this Committee evaluates a better flood control or flood 
insurance system of how we could make more universal this 
system so that it's affordable to everyone in America? It might 
not just be flood, it could be catastrophic loss, which would 
cover everyone, share that risk, given the population of the 
country, two-thirds live within 50 miles of the coast by year 
2015. If you don't live by the coast, you either live on a 
mountain that you could get a rock slide or you live in a place 
that could have an earthquake. Have you given any thought to 
really a real reform of that system so that we could, in the 
long run, rebuild out? And that will be my last question. I'll 
submit the rest for the record.
    Mr. Powell. I've had some initial thoughts, Senator. A 
couple of observations. First of all, it needs to be based upon 
science. And it needs to be updated. I mean, the world is 
changing, and as you know, some of the flood maps have not been 
spoken to since 1980s. It needs to be updated. It needs to be 
based upon science. And then it needs to be based upon risk.
    As you know, the U.S. Congress, taxpayers have spent in 
excess of--I can't recall how much money, but the flood 
insurance program now is broke. I mean, if it's an insurance 
company, it has an insufficient net worth. It's paid out 
claims, so the premiums don't allocate and don't cover it. And 
we may as a country decide we want to subsidize that, but the 
policy should be the same.
    Also, I think another crime is that the $250,000 limitation 
is not applicable to today. Clearly, there are some homes that 
have value in excess of $250,000. So that needs to be looked 
at. The entire flood insurance program needs to be reviewed. 
And I think Congress has admitted to that. Where did I read or 
hear that Senator Shelby or somebody is looking at that on the 
Senate side and some others on the House side are looking at 
that? Clearly it needs to be based upon science. It needs to be 
updated. And we need to look at the current economics of it. 
That's very important.
    Senator Collins. Thank you.
    Mr. Powell, I want to thank you for your testimony, but 
most of all, I want to thank you for taking on a very difficult 
task.
    I think we're very fortunate that the President tapped you 
for this responsibility, and I appreciate all of your hard work 
and your dedication, most of all your caring and compassion.
    I want to leave you today with a line that I heard on our 
tour this morning. What I was told is the Federal Government 
gives Mississippi deadlines but not answers.
    And I think that sentence sums up the frustrations and the 
concerns that we have heard and that you've heard in our 
questions today. So I hope that you will continue your efforts 
to make sure Mississippi gets answers, not just deadlines, from 
the Federal Government. And I thank you very much for being 
here today.
    Mr. Powell. Thank you.
    Senator Collins. Thank you.
    I'd now like to call forward our second panel of witnesses. 
I have very long, flowery, gracious introductions that I'm 
going to dispense with in the interest of time, and instead, 
without slighting our distinguished witnesses, I'm just going 
to give them one-line introductions.
    Congressman Gene Taylor represents the areas in Mississippi 
most devastated by Hurricane Katrina and has been a forceful 
advocate for Federal assistance to rebuild the Gulf region.
    Brent Warr is the Mayor of Gulfport, and he had been mayor 
for less than 2 months when Katrina struck.
    Edward Favre is in his fifth term as Mayor of Bay St. 
Louis, Mississippi, which was devastated by Katrina.
    And despite the brevity of my introductions, I'm truly 
grateful for you all being here today. And we will start with 
Congressman Taylor.

TESTIMONY OF HON. GENE TAYLOR, REPRESENTATIVE FROM THE STATE OF 
           MISSISSIPPI, U.S. HOUSE OF REPRESENTATIVES

    Mr. Taylor. Thank you. I want to thank such a distinguished 
panel for being with us today. Welcome to South Mississippi. I 
wish the circumstances were better. I wish the weather was 
better for you, but I'm very grateful that 7 percent of the 
U.S. Senators saw fit to be here today.
    On August 28, a storm of unprecedented proportions, as you 
know, hit our area. And I guess the reaction on the part of our 
nation certainly could and has to be better next time.
    On Tuesday afternoon, I went to our County EOC and saw my 
hometown mayor, Mayor Favre, saw the mayor of the next 
adjoining town, Tommy Longo, saw the president of our county 
board of supervisors sitting on the step of the flooded out EOC 
filthy dirty.
    Near this television camera is a guy who has taken a stove 
out in the street hooked up to a propane tank and was cooking 
on a pot that probably holds 10 gallons of something. And I 
hadn't eaten that day. And he said, ``Do you want something to 
eat?'' Quite frankly, knowing other people were much worse off 
than I was, I said, ``No, no, I don't need to eat, but by the 
way, where did you all get that?'' They said, ``We looted it. 
We stole it from the Wal-Mart.''
    And I look at him, and I'm thinking they're kidding. He 
said, ``No, we have sanctioned looting of the Winn-Dixie 
grocery store, the Sav-A-Center grocery store, and the Wal-
Mart.'' He said, ``By the way, you look kind of dirty. You need 
a change of clothes?'' They had a bunch of T-shirts hanging 
over the rail for the handicapped accessible ramp. That's the 
situation that we walked into Tuesday, to give you just how bad 
it was.
    So, as Michael Brown was having his staff making 
reservations at the best steakhouse in Baton Rouge, this is 
what the people in Hancock County are doing.
    Knowing that we had troubles, like many of you fortunate 
enough to be on the Armed Services Committee, my first thought 
is, OK, I need to call the Pentagon. But no phones. In Hancock, 
Mississippi, it's a county of 40,000 people, there was one 
phone.
    Thank goodness the Mississippi National Guard had staged 
three or four people. Their one satellite phone still works. 
And so I can't call my governor. The phone link is out to 
Jackson. I can't call the bases just 20 miles from us, but I 
could call the Pentagon with the great help of Lieutenant 
General Stephen Blank. Immediately the National Guard is doing 
something, calling Admiral Mullin, CNO. Immediately he's having 
ships transferred to off the Mississippi Gulf Coast.
    But what I have to leave you with is the horrible lack of 
communication. Picture yourself in the exact same 
circumstances. You're someone people look to to be able to 
solve problems for them, and you can't talk to anyone. You 
can't call your own governor. You can't call the bases just 20 
miles away.
    As you saw, the bridges between my county and the adjoining 
counties are knocked out. So what used to be a 20-minute drive, 
with all the trees being down and the power lines being down, 
you don't know that you can get there. And, by the way, there's 
no electricity for 180 miles. There's no fuel for that because 
the evacuees have used up most of it leaving. And now they are 
trying to get fuel to come back.
    When you ask FEMA where are the MREs, the answer is--and 
let me tell you how close I came to strangling people with my 
own hands. The answer every time was, ``It's in the pipeline.'' 
``Where's the water?'' ``It's in the pipeline.''
    Something that Michael Brown never fathomed was the 
importance of ice because when you lose your electricity, 
what's in your freezer becomes your store for the next week or 
so. And what the ice does is allow you to let that thaw out at 
a slow rate so that it doesn't all thaw out at once and you 
don't have to throw the rest of it away.
    It buys you about a week to take care of yourself. Where 
you saw people's houses are gone, therefore, their freezer is 
gone. There is no electricity.
    By the way, the saddest moment of the entire thing, in days 
of sad moments, my hometown undertaker comes to me with tears 
in his eyes. A guy I've known all my life. And says, I have got 
bodies stacked up in my funeral parlor. I've got no 
electricity. I'm going to have to start leaving them on the 
sidewalk. What can you do?
    Now, wisely our head of Mississippi Emergency--by this 
time, a few ice trucks had made their way in. They did not want 
to sell because there was lots of money to be made hauling ice. 
And he sees a truck. No charge.
    I know a number of you served in the Armed Services--and, 
again, we need to brag on our National Guard. But something 
that FEMA entirely missed was that half the Mississippi 
National Guard was in Iraq on the day of the storm. The half 
that was home had left every stick of equipment they brought to 
Iraq in Iraq. So our engineering unit, which did a magnificent 
job when they showed up, they showed up about 2 days after the 
storm.
    They were operating with only two-thirds of the equipment 
that they had the day they went to Iraq.
    One of FEMA's responses was, ``We're not sending out food 
to any more than one location until the National Guard shows 
up.'' They didn't know the National Guard was in Iraq.
    Not everything went poorly.
    But there were still snafus. Again, Admiral Mullin did a 
wonderful job of getting a large amphibious assault ship about 
20 miles south of here that we could use as a temporary 
hospital. He also sent the Navy ship USS Comfort to Pascagoula, 
Mississippi, but because of a snafu with the State Department 
of Health, the State Department of Health had banned local 
ambulance service from bringing patients to the USS Comfort. 
Again, that's just insane, and that's something that there 
ought to be some sort of Federal law that overrides that, where 
if that ship is good enough to take the kids off a battlefield, 
it ought to be good enough for things that happen in the 
immediate aftermath of a storm.
    For days this went on. For days no one could tell you where 
the MREs were. No one could tell you where the water was. 
Again, there is no fuel, and what little fuel was coming down 
is going to the emergency responders. But even they don't know 
when it's coming, so they can't ration their patrols.
    It was amateur hour with FEMA.
    I don't know who got the first string, but South 
Mississippi sure as heck didn't.
    Because the guys I dealt with, quite frankly, if I'd have 
been in a position to, I would have fired on the spot.
    So what's the message I want to leave with you? 
Communications. By the Saturday after the storm, someone in the 
House administration had been good enough to find someone who 
is making their way to Mississippi to get me some handheld 
satellite phones. You can imagine putting yourself in this 
position.
    You've got now the second phone in Hancock County, and 
everyone has got to tell you something. So every time someone 
taps you on the shoulder and you move your head, you've lost 
contact. The next thing that happens is that you redial the 
number, only to be told by a prerecorded voice that you can't 
call that number. That number happened to be the Pentagon. So 
it's absolutely something--communications are incredibly 
important.
    And for those of you who serve on the Armed Services 
Committee, I'm thinking what if someone chooses to follow up 
with an attack in Korea.
    What if the Iranians decide this is the moment to move 
because we don't have generators? We don't have gas. We don't 
know how many MREs we have. We don't have water. Local 
hospitals are knocked out. And I'm told how hard it is to get a 
defense hospital in here or a defense mortuary in here. And so 
the thing I would really leave your Committee with is we have 
to be capable of doing both.
    Senator Landrieu raised an interesting point, and this is 
to follow on to where we are today with the insurance 
companies. I am a homeowner. My house is gone. There are pieces 
of my tin roof 25 feet up in the air that I've left in the 
trees. My wind insurance company says it was all water. I point 
to the tin up in the trees. And they say, we're not paying you 
anything.
    One of the few things our Federal Government has done very 
well is the Federal flood insurance program paid their claims. 
The private sector has found every excuse not to pay people.
    One of the things that I would ask those of you who serve 
on the Finance Committee to consider is we need to change it 
and just call it hurricane insurance. Not flood, not wind. If 
your house is gone, who gives a flip with whether the wind got 
it or the flood got it.
    We have to raise the levels.
    Right now the cap was $250,000. And for many in South 
Mississippi, I never would have dreamt I had a house over 
$250,000. I'm now in a position where I have no choice but to 
have a house over $250,000 if I want to rebuild. And if people 
can't insure their homes against the next storm, there's going 
to be a great hesitation for them to rebuild.
    Last, I am so grateful to all of you, each and every one 
who voted for the package that passed in the days immediately 
before Christmas. It did include an unprecedented help for 
homeowners who lived outside the flood plain who had wind 
insurance but are being told that their companies won't pay, 
who suffered damages, that with the help of Senator Lott, 
Senator Cochran, we will be able to help them up to the amount 
of their insurance or $150,000, whichever is less. But a 
decision has been made somewhere in the Mississippi government 
that unless a house was 51 percent destroyed, they're not going 
to pay those claims. As the people who sent the money, I think 
we have the right to say that's not what we had in mind. It 
ought to be based on claims, whether the person's lost 5 
percent of their house or 100 percent of their house.
    This arbitrary number of 51 percent, if you're a senior 
citizen on a fixed income, even with a small house, if it took 
three feet of water, you're looking at the very minimum of 
$50,000 to have the insulation pulled out, the sheetrock 
removed, to have it rewired, have your floors done over, at the 
very least you're looking at $50,000. And that may well be less 
than 51 percent of the value of your home. And if you're on a 
fixed income and your insurer is telling you they're not giving 
you any money, that's a lot of money. Those are the people we 
wanted to help. And I would hope that, again, with a united 
voice, we'll get the message to the bureaucrats somewhere that 
we need to be helping everyone.
    And, again, thank you for letting me be with you. Thank you 
very much for your very valuable time being here in South 
Mississippi.
    Senator Collins. Thank you.
    Dr. Smith, I realized that I somehow skipped over you when 
I was introducing the panel. Dr. Smith is the Director of the 
Governor's Office of Recovery and Renewal, which is the newly 
created office charged with implementing the recommendations of 
the Governor's Commission in guiding disaster recovery policy 
and providing training, education, and outreach. My apologies.
    Mayor Warr.

 TESTIMONY OF HON. BRENT WARR,\1\ MAYOR, GULFPORT, MISSISSIPPI

    Mayor Warr. Thank you, Chairman Collins, Ranking Member 
Lieberman, and distinguished Committee Members, for the 
opportunity to speak with you today. I'd like to speak with you 
about the challenges the City of Gulfport faces in the 
aftermath of Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Warr appears in the appendix on 
page 53.
---------------------------------------------------------------------------
    It is an honor to appear before this Committee, and I'm 
extremely grateful for the tremendous amount of time Congress 
has spent reevaluating pre- and post-storm efforts and for the 
resources Congress has allocated toward Mississippi's 
rebuilding and recovery.
    Without question, the unprecedented amount of damage 
Hurricane Katrina caused in the City of Gulfport and along the 
entire Mississippi Gulf Coast has presented numerous 
challenges. While debris pick-up, temporary housing, and 
unemployment are a few of the obstacles that we have struggled 
to overcome in the months following Katrina, in my opinion, the 
three issues most prevalent on the minds of the Gulf Coast 
residents today are: One, is my insurance going to pay for my 
losses? Two, if not, do I rebuild or sell as is? And, three, if 
I put more money into or borrow money to repair my property, 
what will it be worth when I'm finished?
    South Mississippians are tired and frustrated and we're 
looking for answers from the insurance companies and from the 
authorities establishing our base flood elevations. We are 
ready to rebuild, but only reasonable answers and expedient 
solutions to these questions will stimulate our recovery and 
ignite our citizens to begin rebuilding their homes and 
businesses.
    First and foremost, the disaster that occurred on August 
29, 2005, was not a flood, it was a hurricane. Therefore, 
damages caused by hurricane-driven water that occurred as a 
result of Katrina should be covered by homeowners' policies or 
wind insurance. The insurance industry must be forced to 
recognize, accept, and perform to the commitments made to its 
customers, providing adequate pay for losses that occurred 
because of this hurricane.
    The City of Gulfport is extremely grateful to the Members 
of Congress and our Governor for their leadership and 
determination to assist those who live outside the flood zone 
and did not have flood insurance. The billions of dollars 
allocated toward the recovery will be a tremendous help, but we 
must caution officials, as the Congressman here said, about 
using subjective standards to determine who will receive the 
designated funds. While it has been suggested that such funds 
will be rewarded only to those residents outside the flood 
plain who had greater than 51 percent in flood damage, we 
should not forget about those who reside outside the flood 
plain that sustained less than 51 percent in flood damage. 
Everyone outside the flood plain should be covered for their 
uninsured loss, regardless of the amount of damage, since even 
the authorities who determine the flood plains were incapable 
of predicting the future flooding in these more elevated areas.
    Historically, people purchase the amount of insurance 
that's required to own a home or a business. Most residents 
along the Gulf Coast were operating under the assumption that 
if they had purchased all the necessary insurance required to 
finance their property, they were covered for hurricane losses. 
The thinking was why would someone purchase flood insurance for 
property in an area that has never flooded? In our community, 
even some of our most experienced citizens that work in the 
insurance industry did not possess flood insurance because they 
had homes outside the flood zone. Flood insurance was not 
required in their area, and it had never flooded before.
    However, like many coastal residents, even the local 
insurance experts were surprised and completely unprepared when 
their homes were destroyed by hurricane-driven wind and water, 
and they were even more surprised to learn that they were not 
covered for such dramatic damage regardless of whether or not 
it was caused by a hurricane.
    It's also important to mention those who are suffering 
because they could not afford flood insurance. Even though 
relatively inexpensive, there are many residents that lived in 
flood zones that did not purchase flood insurance for economic 
reasons. Unfortunately, we have learned of many instances where 
insurance companies that would have covered typical damage from 
a hurricane are refusing to pay out claims based on the claim 
that they incurred only flood damage.
    Hurricane Katrina was such an unusual and unparalleled 
event, that people should not be left to suffer the 
consequences for outcomes which were unforeseeable. There 
should be no debate on what came first, the wind or the water, 
because it really shouldn't matter. This was a hurricane, and 
insurance companies should be held accountable for hurricane 
losses.
    While things are getting better every day here in Gulfport, 
we still have many questions to answer before residents can 
begin to rebuild their homes, their businesses, their churches, 
and their schools. These were devastated by the storm's fury. 
And on the forefront is deciding how high or at what elevation 
residents will be required to rebuild destroyed properties.
    Understandably, while it is necessary to build structures 
up to protect them from future devastation, setting base flood 
elevations too high in our community could render thousands of 
residential homes uninsurable or insurable only with dramatic 
constraint. Additionally, many homes on slabs cannot be raised 
to a higher level, and if they rebuild at their current 
elevation, they cannot be insured. If insurance is unavailable 
or difficult for residents to obtain, this will deter the 
property owners from rebuilding, and this will be devastating 
to our recovery.
    If you can't insure it, you can't finance it. And if you 
can't finance it, it doesn't increase in value. If it doesn't 
increase in value, the property will decrease in value. 
Property that begins to depreciate leads to the potential of 
creating slums, blight, and drug-infested, crime-ridden 
communities, eventually leading to the end result of Federal 
buyout.
    The residents of Gulfport and along the Gulf Coast are 
looking carefully at flood elevation recommendations, but these 
must be realistic and attainable so that properties will be 
insurable and continue to appreciate in value. Our residents 
need realistic base flood elevations so that we can begin 
rebuilding the thousands of homes and businesses lost in 
Hurricane Katrina.
    The International Building Code should be adopted as a 
standard to ensure uniform building requirements throughout the 
coastal area. Recognized as an industry standard throughout the 
world, the IBC includes necessary requirements so that 
structures are built more safe and sound, producing a higher 
quality product and improving public safety standards.
    The International Building Code can be used in conjunction 
with codes developed in South Florida after Hurricane Andrew to 
improve a structure's ability to resist and withstand a 
hurricane. However, while enhancing and improving the current 
codes is important, we must be mindful of the cost of these 
higher standards. Many of the working poor in South Mississippi 
were adversely affected by Hurricane Katrina, and we must be 
careful not to make housing unaffordable.
    In closing, I would like, again, to thank the Members of 
the Committee for traveling to Gulfport to hold this hearing 
and thank the Members of Congress for not letting the story of 
Hurricane Katrina disappear from the radar and for continuing 
to search for answers and solutions to our problems. Gulfport 
is coming back. Slowly but surely we're beginning to heal. 
Answering these important questions about insurance, building 
codes, and flood elevations will go a long way in improving the 
morale and progress of our city. If instead of seeing a FEMA 
trailer on a vacant lot residents could begin to see the sight 
of homes and businesses being rebuilt, a sense of hope would be 
restored in our community.
    Thank you for your time, and I look forward to answering 
your questions.
    Senator Collins. Thank you, Mayor. Mayor Favre.

  TESTIMONY OF HON. EDWARD A. FAVRE,\1\ MAYOR, BAY ST. LOUIS, 
                          MISSISSIPPI

    Mayor Favre. Chairman Collins, Members of the Committee, 
Senator Landrieu, thank you for allowing us the opportunity to 
be here before you this morning. And, more importantly, thank 
you for allowing us the opportunity to be here in South 
Mississippi.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Favre appears in the appendix 
on page 59.
---------------------------------------------------------------------------
    On August 29, 2005, Hurricane Katrina slammed into the Gulf 
Coast with the center of the eye crossing near the Mississippi-
Louisiana line.
    In Bay St. Louis, almost 2,000 homes received more than 50 
percent damage with virtually every home receiving at least 
some sort of damage, from either flooding or wind or both. Our 
business community was heavily damaged, and I know of no 
structure which totally escaped the wrath of Katrina. With very 
few exceptions, the entire city was underwater.
    Providing simple survival supplies until outside sources 
arrived; temporary housing needs, clothing and hygiene needs, 
debris removal, denied insurance claims, assuring and 
reassuring our residents that everything would be all right. 
These and many more issues arose in the hours and days and 
weeks and months following Katrina's visit.
    The positive attitude reflected by our great people was and 
still is nothing short of phenomenal. You won't hear complaints 
or gripes or moans or groans or any other signs of self-pity 
from our residents.
    It's just the opposite. The heart, the will, the desire, 
and the optimism of our people is unbelievable. We feel that in 
spite of all of our individual and collective losses, we still 
have a lot to be thankful for. ``While we may not have a house, 
we still have a home, and while we may not have anything else, 
we still have each other,'' soon became our official battle 
cry.
    Questions have been raised as to why the rest of the 
country should be responsible for the luxury of some people 
being able to live along the waterfront. If you think about it, 
the answer is quite simple. There is no area of the United 
States that is immune from natural disasters.
    Whether earthquakes, mud slides, or forest fires in the 
West, tornadoes in the Midwest, blizzards, ice storms, or 
floods in the North and the East, or hurricanes in the South, 
it's only a matter of time before another natural disaster 
affects some part of our country. No single area pays for 
another area; we all pay for each other.
    Bay St. Louis is known as ``a place apart.'' And while part 
of the reason for this designation is due to our small town 
charm, the bulk of the credit goes to our people; very special 
people in a very special place. In order to re-establish our 
status as a place apart, we must not only restore our small 
town charm, but also provide the opportunity and ability for 
our residents to rebuild. We must make our people whole, and we 
must make the city whole. One without the other doesn't 
accomplish this goal.
    While so much progress has been made since Katrina, there's 
still a tremendous amount of work left to be done. Individual 
Assistance Funding was approved by Congress several weeks ago. 
And I realize the implementation of programs such as this takes 
time, but time is of the essence. We must streamline the 
process as much as possible on both the Federal and State 
levels and make the program work for all those for whom it was 
intended. Life is already too complicated for those in need. 
Funding provided in the disaster relief legislation for 
schools, law enforcement, and fire protection must also be made 
available immediately.
    Disbursing funds to the qualified needy will not only allow 
our people to begin putting their lives and properties back 
together, but will also help jump-start our local economy. Our 
people will then have the opportunity and ability to stay home 
or to come back home.
    About 2 weeks after Katrina, as most Mississippi 
municipalities did, we adopted our operating budget for fiscal 
year 2005-06. In the case of Bay St. Louis, we adopted a 
general fund budget of almost $7 million, with absolutely no 
way to fund it. Our three primary sources of revenues are or 
were from gaming, sales tax, and property taxes. Casino 
revenues won't be received until the summer, if then, and will 
be considerably less than pre-Katrina amounts.
    Even though a number of our smaller businesses have 
reopened, sales tax revenue will also be considerably less than 
pre-Katrina amounts. Property taxes for fiscal year 2005-06 
will be about two-thirds of what was projected and for fiscal 
year 2006-07 will be about 10 percent of what was projected. 
And fiscal year 2007-08 doesn't look any better. Under the best 
of circumstances, it will still take several years for our 
revenue sources to rebound to pre-Katrina levels.
    My major concern for now and the foreseeable future is 
funding for the local governmental entities affected by 
Katrina. To date, the only sources of public funding are by way 
of loans. To my knowledge, there has yet to be any mention of 
grant funding to make up for lost revenues for local 
governments over the next 5 to 7 years.
    The Community Disaster Loan Program provides funding at the 
level of 25 percent of our current operating budget or 
projected revenue losses for the next 3 years, whichever is 
less. The funds we have received from this program are helping 
to cover payroll expenses, but these are only loans, and there 
is specific language in the legislation prohibiting forgiveness 
of these loans. If the requirements of this program were 
amended to allow loans for the greater, which would be 
projected revenue losses, this would help our situation, but 
what we really need is an amendment to the legislation removing 
the prohibition on forgiveness of the loans. We would then ask 
for the same treatment afforded a number of other cities such 
as Miami and Homestead City and Florida City who have all had 
loans from the CDL program cancelled.
    The State of Mississippi has also made funds available 
through the Mississippi Development Bond Bank to assist local 
governments meet some of its current operating and cash flow 
needs. We would also ask forgiveness of these loans as we do 
not and will not for a long time to come, if ever, have the 
ability to repay these debts. We have already asked the State 
legislature for legislation to forgive any outstanding State 
Revolving Fund loans for any governmental entity affected by 
Katrina.
    On a local level, we lost about one-third of our employees 
since Katrina. We have not yet replaced them. But in some 
cases, we will have to do so. Other than salaries, debt 
service, and some required expenses, we are dealing only with 
Katrina matters. This can't last forever, and sometime in the 
near future, we must go back to normal operations, for which we 
don't have permanent funding sources.
    We need a grant program decreasing annually to cover our 
lost revenues over the next 5 to 7 years. Without this, there 
will be no Bay St. Louis, no Waveland or Pass Christian or Long 
Beach. Biloxi and Gulfport may survive simply because of their 
size, but even for them, it won't be easy. We need deadlines 
extended to cover the duration of the disaster.
    That old saying about a picture being worth a thousand 
words doesn't fit this situation. Even 141 days after Katrina's 
visit, until you see for yourself at ground zero, it's almost 
impossible to fully comprehend the magnitude of the 
destruction.
    And because of the magnitude of the destruction, we can't 
continue to think in terms of what has been done in the past. 
Throw out the old rules. In responding to the September 11 
disaster, this country did things it had never before done. We, 
too, must now respond by doing things never before done. We 
must be creative in our approach to solving the problems at 
hand.
    When President Bush visited Bay St. Louis and Waveland last 
week, an extremely important message was conveyed without 
saying a single word. His presence alone told us that we have 
not been forgotten. Your presence here today conveys that same 
message. With all of your responsibilities, you've chosen to 
take time out of your busy schedules to be here with us.
    Our people are a proud people. We may be down, but we're 
far from out. We don't ask for pity. We simply ask for 
assistance. And with your help and the grace of God, South 
Mississippi will rebound and Bay St. Louis will once again be a 
place apart.
    May God bless each of you, may God bless the great State of 
Mississippi, and may God bless America.
    Senator Collins. Thank you. Dr. Smith.

TESTIMONY OF DR. GAVIN SMITH,\1\ DIRECTOR, GOVERNOR'S OFFICE OF 
           RECOVERY AND RENEWAL, STATE OF MISSISSIPPI

    Dr. Smith. I'd like to thank the Senate Committee on 
Homeland Security and Governmental Affairs for allowing us to 
talk a little bit about some of our issues and echo many of 
those expressed by local officials, as well as Congressman 
Taylor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Smith appears in the appendix on 
page 63.
---------------------------------------------------------------------------
    Just one thing very quickly on the CDBG Program. The 
concern about the 51 percent or greater. We are literally in 
the process of looking at all of the needs outside of the flood 
plain and coming up with a strategy to go well beyond 51 
percent. So I just want to mention that as a policy issue it's 
very important to Mississippi.
    What I'd like to focus on is housing. Mr. Powell talked 
about housing, housing, housing being our issue, and it really 
is in many ways. So much of recovery is driven by housing, both 
the temporary housing as well as a provision of a suitable 
number of alternatives to transition from that temporary 
housing to permanent housing. Safe, affordable, high-quality 
housing. So I'd like to focus on those types of issues.
    One of the biggest challenges facing us within Mississippi, 
and I would argue facing people around the country following a 
disaster of this scale, is the lack of an operational or a 
coordinated long-term recovery strategy. It just doesn't exist 
in the Federal Government. Post disaster there's not clear 
identification of who's in charge, and that was talked about by 
many of the Senators today and other local officials. FEMA has 
a role, a very important role, as does HUD, USDA, EDA, and on 
down the line. But there's not a central coordinating point 
that takes charge and knocks out policy issues. And that's a 
fundamental problem facing the State and our country.
    What we really need is a national program that's flexible, 
that's driven by local needs, and ideally one that is developed 
before a disaster ever occurs. It's too late for this disaster, 
but I would encourage Members of the Senate to think about that 
in terms of long-term housing strategy developed before the 
storm ever happens. And I'll talk about that in just a bit as 
well.
    Probably the greatest problem is a lack of coordination 
across Federal agencies, that goes back to the need for this 
integrated recovery plan, that goes to the housing, 
infrastructure, schools, you name it. But housing on the 
Mississippi Coast is just crucial. I want to focus on that.
    One of the things that we don't seem to learn is that we 
just don't learn from past disasters. There are techniques, 
there are approaches out there that can speed the deployment of 
temporary housing. There are techniques out there that can 
provide safe and affordable housing quickly. We just don't seem 
to learn those lessons. And I'll touch on a few.
    For example, one is driven by advances in the housing 
trade. Now modular housing, panelized housing, other housing 
techniques have advanced significantly in the last 5 years. In 
the past, it was almost a dirty word. I would make the argument 
that if you do it right, that's one option. It's not the 
answer, but it's a piece of the puzzle.
    One of the things that we need to do, we need to develop 
the funding mechanism to do that, is to quickly stand up 
manufactured housing plants on the coast immediately following 
a disaster where they can be stood up quickly to build quality 
manufactured housing. In fact, an ideal goal should be that no 
one should ever have to live in a travel trailer following a 
disaster. It can be done. It's very difficult. It's 
challenging, but it can be done. That should be the ultimate 
goal. There's a likelihood that people, some people will be in 
travel trailers, some people will be in mobile homes, but how 
do we, as a country, figure out a way to come up with better 
options than that. We can do that. It's possible.
    One way to do that is prestorm agreements with private 
sector builders and others to literally stand them up just like 
you would any other asset following a disaster. We bring in 
water, we bring in ice, and we bring in food. But there's no 
reason why we can't bring in housing quickly and put up sites 
quickly. There are quality places to live in.
    One of the problems with this concept, the concept of a 
transitional community that's been talked about by FEMA and by 
HUD and others, but frankly, it's not been led by someone. And 
it's almost--I would make the argument generally, it may be too 
late for the State of Mississippi to take on the concept of 
transitional housing where you literally build the appropriate 
infrastructure in these emergency group sites that will allow 
you to transition those emergency group sites of travel 
trailers and mobile homes out and replace them with high-
quality, sturdy, affordable housing. That's a conceptual issue 
that FEMA and HUD and others have been bouncing around, but 
frankly, in this disaster it really hasn't happened yet and now 
we're almost at the point where it's too late.
    One of the things also that's a major concern for us is the 
idea of getting resolution to key policy issues. The failure to 
do that is limiting the quickness of our recovery. In fact, the 
mayors have talked about policy issues that we need resolution 
as soon as possible. The sooner we can get resolution of those 
policies, the quicker we can move forward with rebuilding our 
community. I'll talk about a couple that are fundamentally 
important.
    One is the Hazard Mitigation Grant Program, that is a 
funding source that can be used inside the flood plain to help 
repair and/or elevate damaged housing. Its primary function is 
to reduce future losses; however, in Mississippi what we're 
very interested in doing is elevating flood-prone homes. 
However, if the house is gone, there's nothing to elevate. So a 
policy issue for us is to use the Hazard Mitigation Grant 
Program funds to pay for the foundation and the destroyed house 
upon which it sits. What we're planning on doing, what we'd 
like to do and suggest is how we link that with the CDBG money 
so that there is a cap for the housing.
    But this is a policy issue that goes to the issue of the 
tens of thousands of homes that are simply gone in the flood 
plain. Until we can get resolution to that issue, we're not 
sure--in fact, frankly, if we can't get an answer as to how 
we're going to pay for the rebuilding of homes inside the flood 
plain, a lot of the mayors and others are in a very difficult 
position because the flood advisory maps--while I'll commend 
FEMA for this--the flood advisory maps that were created are 
one of the most innovative tools to help local governments make 
informed decisions.
    Unprecedented. And FEMA did an amazing job on that, and we 
ought to recognize them for that. However, if local government 
officials can't tell the disaster victims how they're going to 
rebuild their house to those new flood elevations, then people 
are scared. They're terrified. They don't know what they're 
going to do. And, again, without having a resolution to that 
policy issue, our greatest fear is that these homeowners are 
going to sell out. They're going to sell their land and then 
they're going to turn it over to developers and others who may 
end up building highrises along our coast. And that's 
definitely not something we'd want to do. We want to rebuild 
Mississippi safer and stronger, but at the same time, we want 
to capture that architectural heritage that made it so unique. 
So that's a very important policy issue that we're facing.
    Another is, when we rebuild housing, we're also looking to 
rebuild communities. So it's not just housing, but it's also 
damaged infrastructure. And there is a policy--or there is a 
program with FEMA known as the 406 Hazard Mitigation Program. 
It's really 406 Mitigation within Public Assistance. And, 
frankly, historically FEMA has been very focused on cost 
containment associated with the Public Assistance Program.
    The 406 Mitigation Program has a fund, and it is eligible 
if the home was--the infrastructure was damaged, you could 
rebuild stronger. Better than it was before the disaster, but 
making it less vulnerable to future events. Coupling the 
housing policy issue of the Hazard Mitigation Grant Program and 
the expenditure, a wise investment, of 406 dollars to protect 
infrastructure, that will go a long way to rebuilding our 
communities safer than they were.
    I will throw out one thing just to let you know that there 
is a study that just came out and, in fact, FEMA funded it, the 
Multi Hazard Mitigation Council just came out with a study that 
showed for every one dollar invested in mitigation, it was a $4 
savings over the long run. Very powerful lesson, I think, for 
all of us.
    If I could throw out a couple other issues that we're 
facing as well. Housing issues, builders. Availability of 
trained work force, provision of work force housing. Adequacy 
of construction materials.
    Both in terms of materials, just quantity, but also the 
appropriate types of materials to rebuild coastal construction, 
rebuild better, rebuild it safer. We're also talking about 
issues of scale. You know, 65,000 homes damaged or destroyed. 
That magnitude, we need a coordinated effort at the Federal 
level, and it's just not there. And we desperately need that. 
The speed of transition from temporary to permanent housing. 
How are we going to get these people from their mobile homes 
that are actually on their lots on the coast into a place to 
live while they're rebuilding their home. These are all issues 
that are unresolved. Affordable housing, rental housing, 
critical issues, but again, the answers just aren't there in 
terms of the funding that's going to pay for it.
    The local community needs--I can't emphasize this enough--
three things. One, adequate building inspectors to help with 
rebuilding. Two, adequate grant managers to help provide 
funding and help find the money beyond the FEMA programs to 
help rebuild these communities better than they were before. 
And three, housing counselors that will actually walk 
individual homeowners through the process. It's a maze of 
programs, and there are a lot of gaps out there, so we need to 
blend those resources so we can help rebuild Mississippi better 
than it was before. Thank you.
    Senator Collins. Thank you.
    Thank you all for your testimony. Each of you has 
eloquently described the needs of your communities and the 
challenges that you're facing.
    I'd like to ask the two mayors what is the single most 
helpful action that the Federal Government could take to assist 
your communities in recovering? We'll start with Mayor Warr.
    Mayor Warr. I can only pick one?
    Senator Collins. There are so many, I know.
    Mayor Warr. I think where the Federal authority is there, I 
would have to say that the base floor elevations of the 
structures, how high a structure needs to be built to be 
practical and sustain damage. The recommended base flood 
elevations--the base floor elevations that we have right now 
for this storm--and FEMA has done, and Dr. Smith is right, an 
outstanding job with these recommended maps, but if the 
structures were built to those elevations, they still would 
have blown away in the storm. This storm is totally 
unprecedented and in no way should be used as a benchmark. 
Hurricane Camille was a very fine conservative benchmark, and 
we've been saying that since the day after the storm.
    And going far beyond and making structures be put on what 
we call giraffe legs would render them, by our building code, 
totally impractical and unusable. We have a 12 to 1 rise to run 
ratio in our building code. So if someone were to need a 
handicap ramp, so to speak, for their home and they couldn't 
afford an elevator, and their home had to be raised a certain 
number of feet, they could easily have to have a handicap ramp 
75 or 100 feet long. Of course, how would they push themselves 
up there in a wheelchair anything that long.
    We've studied these maps. And even though they're good in 
their advisory, I think that we need to take a few feet off.
    And then insure the losses, taking the cap off of flood 
insurance and let people buy however much they need and charge 
them a fair price for it. And then put a more practical number 
on what we call the front, which is on the Gulf, and on the 
back, which are the bays and the bayous. A little more 
conservative than they were before, but not impractical. That 
would be a huge advantage to us and, of course, we need that 
very quickly.
    Senator Collins. Thank you.
    Mayor Warr. Yes, ma'am.
    Senator Collins. Mayor.
    Mayor Favre. I guess summing it up in one word, money. You 
know, quite frankly, as I said, I think the key to the entire 
coast rebuilding is a combination effort of making our people 
whole and making the governments whole. One without the other, 
having a city with no people being able to live in it doesn't 
do a whole lot of good to have a city and having the people in 
an area where there is no longer a city, they're not able to 
receive the services and enjoy the quality of life that they 
have enjoyed in the past. So one without the other really 
doesn't solve the problem. So that would be the key is making 
our people whole and making the governmental entities whole.
    Senator Collins. Thank you.
    Dr. Smith, I can't help be troubled as I look at the 
calendar and realize that the hurricane season for this year is 
only about 5 months away. What is your assessment of 
Mississippi's preparedness for another hurricane season when 
you're still struggling to recover from the devastation of last 
year?
    Dr. Smith. Right. Actually one of the issues that has been 
lost in all this, a lot of the communities along the 
Mississippi Coast were actually considered on a nationwide 
basis quite progressive in terms of their flood plain 
management policies. One of the challenges with this disaster, 
as the mayors have mentioned, is the scale or just the size of 
this event. Things were in place, procedures were in place, but 
it's--frankly, the scale of it, this is where State Government 
needs Federal assistance. And by definition, when a 
Presidential disaster occurs, it exceeds the capability of the 
State Government to a large extent, but this exceeded it on 
several orders of magnitude.
    And one of the challenges or one of the issues I would 
throw out is FEMA was preparing for catastrophic disasters. 
They were doing catastrophic disaster planning; however, they 
didn't finish the work. And I'm sure that many of the Senators 
are aware of that. Those kind of issues need to be revisited. 
On a disaster of this scale, States by themselves just can't do 
it. They really need a coordinated Federal level of assistance.
    Senator Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks to this 
panel. Gene Taylor, thank you for being here and for your 
testimony.
    Mayors, I thought your testimony was very compelling, and I 
appreciate what you said and promise you that we'll do our part 
to see if we can respond on both of the issues you talked 
about, the FEMA guidelines and also about the--I was about to 
say impossible, but very difficult circumstance you're in 
without a tax base.
    I want to ask a question of you, Dr. Smith, and I thank you 
for being here. I was very impressed by the report of the 
Governor's Commission. It contains in it some really stunning 
statistics about the poverty rate in the State and about the 
particular impact, therefore, that the hurricane has on a lot 
of people here. As the report says, many residents of South 
Mississippi possessed limited assets on the eve of the 
hurricane, so think of where they are now. The report also says 
that affordable housing and home ownership are cornerstones on 
which the region will rebuild for the long term, and it calls 
for investments and housing strategies that target low wealth 
residents. It's again a quote.
    And I wanted to ask you if you could talk a little bit 
about what some of those strategies are and what role you 
believe the Federal Government must play in implementing that. 
And if there's time, I'm going to ask the mayors and 
Congressman Taylor to just add a word to focus on how to create 
out of this tragedy adequate housing stock for lower income 
residents.
    Dr. Smith. Absolutely. In the profession, we talk about 
vulnerability of people in communities. One of the things we 
don't talk about sometimes is the concept of social 
vulnerability. People, as you just mentioned--it's one thing to 
be a homeowner that's going to be able to take money out of a 
bank account and rebuild their home. It's another for someone 
who had no flood insurance whose home was destroyed who was on 
a fixed income, be it elderly, poor, whomever, those people we 
are definitely, as mentioned in the Governor's Commission 
report, we are looking at reaching out.
    One of the things that we're doing is using Federal 
assistance as far as we can stretch those dollars, both the 
CDBG money and the Hazard Mitigation Grant Program funds, to 
focus on housing-related issues. Focusing in many ways on risk, 
but within that risk, those people of low and moderate income.
    We're also looking at reaching out to nonprofits because, 
frankly, the Federal programs oftentimes are focused on risk, 
not necessarily--the Federal disaster programs are oftentimes 
focused on risk reduction and assistance, they're not 
necessarily focused on assisting the people that need the help 
the most, the poorest of the poor in many cases.
    And so we're looking at partnering with our Mississippi 
Home Corporation. We're looking at partnering with Habitat for 
Humanity and other organizations that don't have the same 
strings attached. In fact, frankly, that's one of the 
challenges in disaster recovery is how do we help rebuild 
affordable housing stock given the constraints of Federal 
programs. We need programs that have fewer constraints but 
allow us to help those most needy individuals.
    Senator Lieberman. Well, out of this tragedy I invite you 
from a State and local level to give us advice about how we can 
change the housing programs to better meet this need. It 
strikes me as we talk about this that the nation was outraged 
and, in some good measure, embarrassed about the plight of poor 
people in New Orleans who were left behind.
    That was very visible. Because this is a very different 
circumstance, not a large city, not a Convention Center. You 
all worked together to get people to safety. Nonetheless, there 
are genuine problems of poor people here as well. And that's 
why I asked the question to highlight that need of the Gulf 
Coast of Mississippi as well as New Orleans.
    Mayors, do you want to add a quick word? I got about a 
minute left on my time.
    Mayor Favre. From my standpoint, I think we saw or still 
see that there's a continuing need for temporary housing or 
affordable housing. I think different ideas that have been 
addressed included manufactured homes.
    Last week up in Jackson it was--what'd they call it--the 
Yellow House. A little small house, 300 square feet. Doesn't 
sound like a whole lot, but if you're living in a trailer, 300 
square feet is roomy compared to a FEMA trailer.
    Senator Lieberman. We've heard.
    Mayor Favre. You can move a little bit.
    And I think once again, just like we said before, it's 
going to mean getting creative, whether it's with the 
manufactured housing or something else.
    Senator Lieberman. Do you want to add something?
    Mayor Warr. Yes. We do have an opportunity here to create 
homeowners out of people who never have been homeowners if we 
do this right. The Governor's Commission on Renewal has done 
some exemplary work on designs of homes but that don't have to 
be gigantic, palatial homes but that are very liveable, 
comfortable, and will appreciate over time if we put them in 
the appropriate places. If we look at end fill lots and areas 
that have had homes destroyed during the storm. If we go to 
faith-based groups, Habitat for Humanity, other organizations 
like that that don't have the strings attached, as Dr. Smith 
mentioned, we will have a tremendous opportunity to do that and 
do it in a right way. We're very sensitive along this community 
to not cluster people into groups where then they begin to be 
identified as low income areas. I think it's very important 
that the persons who live in those homes that have been 
provided for a better opportunity have the opportunity to do so 
and be the only ones that know that they have that--were given 
that opportunity to live in that home.
    Senator Lieberman. Mr. Taylor, do you want to add a word?
    Mr. Taylor. Very quickly. Think about it, it's the 28th, 
29th of the month. People on a fixed income have probably spent 
their entire budget on food, rent, and now gasoline's almost $3 
a gallon. And they're given the decision to stay in their home 
of many years or try to get out on the road, only to discover--
again, for the poorest of the poor, they don't have a credit 
card. They're out of money.
    And one of the many mistakes that FEMA has yet to rectify 
is we ought to have a provision to get some gasoline in 
people's cars because if we get them out of the area to go 
visit relatives, then we don't have to feed them MREs, then we 
don't have to find them a portalet, we don't have to get them a 
generator. And they're in a place that's got electricity should 
something go wrong health wise. And that really is something I 
wish Homeland Security would look at, because whether it's a 
chemical, biological attack, EMP somewhere, or a hurricane, you 
have to get the folks out of the affected area. And it really 
does become our job to get them out of there.
    Senator Lieberman. Thank you all. We've learned a lot.
    Senator Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    Very great panel. Thank you very much.
    A question on the housing. I got a chance to look at what 
they call the Katrina cottage last week, about 300 square feet. 
I don't know, I think it cost about $35,000. I don't know what 
the FEMA trailer costs, maybe Dr. Smith does. Have folks looked 
at perhaps looking at the cost of the trailer and some system 
that would allow that to be used as a down payment on----
    Mr. Taylor. Senator, it's about $19,000 for the FEMA 
trailer, not counting the installation.
    Senator Coleman. Has there been any discussion about the 
ability of those funding to provide something more permanent 
and, in comparison, certainly much more liveable?
    Dr. Smith. That's right. That was one of the issues of the 
Governor's Commission report, and certainly we need to get you 
all copies. We'll definitely do that. One of the things in 
housing was, again, the ideal goal of trying to come up with 
solutions and alternatives to living in travel trailers and 
mobile homes. And one was what's called a Katrina cottage, the 
300-square-foot home.
    The benefit of that is not only is it something you can 
move into quickly, but it's built in a way that you add on like 
you would see in other literally developing communities where 
you can literally add onto that home and eventually build out 
onto a lot to a larger home. But that is that transitional 
component and that one was one of the techniques that came out 
of the planning work where we brought in hundreds of 
architects, planners, and others from around the country and 
they met and worked with each of the 11 communities. And that 
really kick started the recovery process.
    Senator Coleman. I know there was an article, I think it 
was at the end of the year, early part of the year, I saw a 
copy of, I think it was the Biloxi Sun Herald paper, and they 
had talked about the comparisons between Camille and Katrina 
and noted that a lot of work after Camille--there was a 
commission and there was a series of recommendations. And the 
conclusion seemed to be that the recommendations made it into 
reality. I've looked at the quote. Probably the study 
envisioned a really hopeful, positive, optimistic work with 
communities to try to put it together.
    My question is, perhaps to the mayors, what is it that you 
can do to help ensure that those visions have a better chance 
of becoming realities? So it isn't just, we look into the 
future and there's another crisis and someone says, Oh, they 
did all this great work after Katrina, but what happened.
    Mayor Warr. I think it's just crucial that, first off, you 
have to buy into the vision. You have to understand the people 
who have that skill and that dedication and who came here and 
gave of their hearts. We saw them do it. And they spent 
countless hours of doing so. They have to know better than I do 
how to design that home. They do this for a living. They've 
done it many times. So I think that we would be selling 
ourselves short to not try to take fullest advantage, not 
necessarily for ourselves, but for the communities that we're 
elected to serve by doing that. They've developed this plan. 
They've given us a map. And I think that we owe it to the 
people that elected us to try as best we can to follow that 
map, pick the best roads, and not be diverted. But it's a 
commitment to the plan. That's what we must do.
    Senator Coleman. Mayor Favre.
    Mayor Favre. I agree completely. And one key to the process 
has been the public input from the very beginning. Not only 
have we bought into it, but the people have bought into it, 
too. Like Brent said, I think we owe it to them, and I think 
they're going to hold us responsible and hold our feet to the 
fire, to make sure that the recommendations are implemented. 
The ones that are feasible.
    We've looked at, in our case in Bay St. Louis, quite a 
number of recommendations, the vast majority are very feasible, 
something that we have all accepted and we look forward to.
    Senator Coleman. I think the community buy-in is especially 
important. There's been certainly a different reception to the 
vision that's been laid out with respect to New Orleans.
    And I look at the reception of this vision.
    My biggest concern is, I know mayors are very practical, 
they've really got this grand vision. On the other hand, you're 
worried really about basic stuff now. You've got the debris 
cleanup. And then you've got transitional housing, long-term 
housing, on the other hand. Mayors, you've got visions of a 
vibrant city on the hill that they still want to build. And the 
whole piece is an important piece.
    So please--time is short in this hearing, but let us know 
how we can continue to be of help. I add my voice to Senator 
Lieberman and the other Members of this Committee in terms of 
being responsive to concerns about insurance and about basic 
funding, how we make those things work. So I want to thank you 
all for your participation.
    Senator Collins. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    First, I'd like to take the opportunity to salute my 
colleague Senator Landrieu. Since the hurricane, I've concluded 
that there are five Senator Landrieus, that's how omnipresent 
she has been. And I think the fact that you're here today--
there are others who are waiting for us in New Orleans, and 
that's appropriate, too. But your concern is for the whole 
region, and you've been just a phenomenal advocate for the 
whole region. And I just give you enormous credit for that. 
It's a great tribute to you.
    Congressman Taylor, maybe you'd like to be the House 
sponsor of my Truth in Insurance Act. I say that we need to 
separate the insurance cons from the insurance companies. And 
they write the policies. They write the fine print. They 
interpret them. They decide on whether or not to pay the claim 
or not. They handle the appeals. And then if they don't pay, 
they pocket that money in profit. So, I mean, talk about a 
kangaroo court and a stacked deck.
    It's just ridiculous. And among that, without getting too 
long into it now, but I would require that they put on a front 
page in plain English a disclosure what is not covered in this 
policy so people understand what they think they're paying for.
    I had a gentleman ride over with me from the airport, said 
he paid $1,900 a year for his policy, and then he finds out 
he's not covered for wind.
    I've got people in Minnesota who found out after the fact 
that their home was not covered for flooding. It was covered if 
there was a revolution and the revolutionaries destroyed the 
home. It was covered if their home was hit by an airplane 
crash. Now, what are the probabilities of those occurring 
versus flooding. Again, they weren't fully apprised.
    The same thing in health insurance. So I think that's an 
area of serious need in reform beyond the scope of this 
Committee. But I hope we can maybe work together and accomplish 
that.
    I guess I'd like to ask each of you in turn, going back to 
your observations, Congressman--and, again, I thank you for 
being such a staunch advocate for your constituents. You 
described sort of the first couple of days or weeks of FEMA's 
response or lack thereof. Tracking it further to now, we heard 
from Coordinator Powell about some of the statistics about 
various loans and grants, financial assistance, and that 
disconnect with at least what I have heard is the public 
perception. Again, anecdotally, I heard on the way over here 
that people who called the 1-800 FEMA number would wait for 20 
minutes on the telephone line and then just get a recording 
giving them an e-mail address when they didn't even have 
electricity that they had to follow up, and then they were 
disconnected.
    I mean, have these things that were maybe apparent in the 
immediate aftermath, have they improved? Are we seeing progress 
now or are these problems persisting?
    Mr. Taylor. Senator, to give you a for instance--2 or 3 
days after the storm, I visited a shelter. FEMA employees in 
there were very proudly handing out brochures saying to call 
this number. There's no phones. And when I asked--when I handed 
one back to a FEMA employee, I said, What's wrong with this 
brochure? They're looking for grammatical errors. There are no 
phones. You need to get people down. This is an area where 
people look at each other. That's why we have town meetings. 
That's why we all have Congressional offices. And so that took 
a long time to address. It's not been fully addressed.
    I can assure you that 95 percent of all the work in all of 
my Congressional offices are FEMA complaints. We still have 
5,000 South Mississippi families waiting on a FEMA trailer more 
than 150 days after the storm. That's ridiculous.
    I can take you to Hope, Arkansas, and show you 5,000 FEMA 
trailers sitting on the old runway there. I can take you to 
Purvis, Mississippi, and show you ADA trailers for folks with 
disabilities. As the local folks say there are no trailers 
available. I can take you to a place called De Lisle, there's 
probably another thousand trailers sitting there. I can take 
you to Hancock County and show you another 500.
    And one of the problems is, again, I think we have to 
address this, is that, in this instance, Bechtel got the 
contract. It's a cost plus contract. So the more they drag 
their feet, the more cumbersome they make the project, the more 
additional layers they add to the process of delivering a 
trailer, they get paid for it. And I actually got a member of 
the Bechtel family on the phone and said, If you're doing this 
bad a job in South Mississippi, what in the heck are you doing 
in Iraq where I can't see you. And, again, if the 
Administration is not going to fix this, then it's incumbent on 
the House and Senate to do so.
    Senator Dayton. Thank you, Congressman. Mayor Warr.
    Mayor Warr. We did run into incredible problems like that, 
as Congressman Taylor said. Communications, it was like the Old 
West. We had to send someone across the county to ask someone a 
question to come back and tell us what the answer was. So it 
was totally unprecedented. We've not had anything like this 
before. It was bad during Camille, but it wasn't like this. 
Really when the coastal counties basically are just put to 
their knees, everything is off standard. FEMA didn't come down 
here intending to do a poor job. No one did. And the 
organizations that typically come in and are the first 
responders, Salvation Army, the Red Cross, and organizations 
like that, they came in, and they were just as overwhelmed as 
all of us were. I think we'd be in error to try to point too 
many fingers immediately after the storm. Now, since the storm 
and as the processes have been set in place, that's where we 
need to start really looking and seeing what our best processes 
is. I'm not really giving you a lot of answers, but----
    Senator Dayton. Madam Chairman, may I ask the other two to 
respond briefly, please, any highlights? Mayor.
    Mayor Favre. I think it's been mentioned when the storm hit 
and the FEMA response was not there, we realized that FEMA was 
spread quite thin dealing with storms from last year and this 
year in the Florida area, Dennis, including Katrina, before it 
hit us, it hit down in the Florida area and all.
    So it was quite thin. But some of the problems, I guess the 
major problems we've had is that, first, we have FEMA 
representatives at every one of our locations, Hancock, 
Harrison, Jackson, all over, yet none of them can make a 
decision. They've got to go up the ladder however many levels, 
and that decision at times takes time. And then when we get a 
decision in a week's time, that decision has changed. So we 
have to start the process back again.
    Debris removal was talked about. Why is it taking so long. 
Because of all of the requirements placed on the debris 
removal, whether it's the Corps of Engineers or the private 
contractors, by the FEMA requirements. Second thing is the 
recordkeeping requirements. We have four of my staff members--
on a very limited staff that we have, four of them spend 
virtually their entire days doing nothing but recordkeeping. 
That's in addition to the FEMA guy who is doing a great job 
with us. But four people just to do recordkeeping. And the 
threat, implied or actual, has been there since the first 
meetings with FEMA that, be careful, we don't want to have to 
do you all like we had to do in Florida last year and the year 
before and come back and get $2 million.
    We didn't have $2 million before the storm, we sure don't 
have it now. So it's the recordkeeping requirements and the 
fear of not complying and not getting reimbursed for something 
that has caused us the most problems.
    Senator Dayton. Thank you. Dr. Smith.
    Dr. Smith. One of the issues, frankly, is that I think we 
need to take a look at rebuilding FEMA. It doesn't have the 
tools they need. The tools are being taken away from them as 
opposed to given to them.
    At one time they had one of the highest morales, I think it 
was even mentioned earlier, among all Federal agencies. Now 
they're at the bottom, if not at the bottom. So if you don't 
have the tools and you have low staff morale, you're almost 
doomed to fail.
    And I can tell you, I've worked with FEMA a lot, and I 
respect them immensely. And there are a lot of very dedicated 
people, but they just need more. They need more assistance.
    And on that note, frankly, one of the challenges is we're 
not giving natural hazards the respect, if you will, they 
deserve. I mean, that is an equal, if not greater, threat than 
any threat facing this country is just our vulnerability to 
natural hazards.
    Senator Dayton. Thank you, Dr. Smith. Thank you, Madam 
Chairman.
    Senator Collins. Senator Coburn.
    Senator Coburn. Thank you, Madam Chairman.
    Just a consensus, everybody believes the cap needs to be 
raised on flood insurance, there is no question about that.
    On the new FEMA maps, everybody agrees they may be a little 
bit tougher than they need to be.
    Is that the consensus?
    Mr. Taylor. Doc, I've been through this once. I don't want 
to go through it again in my lifetime. I'm going to go as high 
as they say to go. That's just my personal opinion.
    Senator Coburn. Is there a feeling that they may be--FEMA 
wants to overreact on this too. They don't want to go through 
this again either. And so my worry is that we have overreacted 
on the FEMA maps to the detriment of the people of Mississippi 
and Louisiana.
    Mr. Taylor. If I may. What my concern is, at this point, 
they're only recommendations. Some of the counties have 
accepted and some of the cities have accepted their 
recommendations from FEMA. Some of them have moved in that 
direction. Now, my fear is with either a change in 
administration or either just a change of heart in Washington, 
they go back to those counties that didn't fully implement 
their recommendations at some point and say, you can't get 
flood insurance. And in that instance, my home county would not 
be able to get flood insurance. So someone in FEMA needs to 
issue a definitive answer whether or not these are the rules or 
just recommendations and they can be willing to live by that 
decision. Because they've really kicked the ball back on 
probably, easily, a dozen different governing jurisdictions to 
make the decision in the case of these cities.
    Senator Coburn. So who's going to start their home over 
until that's decided?
    Mr. Taylor. Like I said, I'm going by the FEMA 
recommendation.
    Senator Coburn. I understand. But who is going to make a 
decision to invest and loan money on it until that is decided? 
So that's something we need to communicate back up. FEMA needs 
to say, this is the strict and fast rule. No, it's a 
recommendation. We will hold you to it, and we're going to put 
that down and we're going to stick to it, or it's just a 
recommendation.
    Dr. Smith. If I could, one of the challenges is, these maps 
were created as a means to give the tools, information to local 
governments to help them in rebuilding.
    They're not required. However, when the new flood insurance 
rate maps that are similar to these are done in 12 months or 
so, that is going to be required. And, frankly, one of the 
challenges facing local governments is if, in order to protect 
lives and property, it makes sense to follow the advisory 
elevations. However, if you don't have the money to pay for it, 
it's going to reshape the entire coast in a truly negative way.
    Senator Coburn. That's my whole point, in 12 months if 
you're really going to get a definitive answer in terms of 
flood insurance and what the requirements are going to be for 
the financing for these homes, correct?
    Dr. Smith. Well, under the advisory maps, if local 
governments choose to adopt them, they will be as if they were 
flood insurance rate maps, they could be used for regulation 
and they could be used for insurance.
    Senator Coburn. So are you telling me they've already given 
you the answer?
    Dr. Smith. I'm saying the local governments have--at this 
point they're given the option of adopting the advisory maps as 
for regulation.
    Mayor Warr. But in many instances, it's going to be a 
dramatic increase on peoples' homes, and they're not going to 
be able to practically raise these homes. So if you have 
someone who has a $100,000 home and they're not going to be 
insured for their loss and there's $50,000 worth of damage, and 
if they put--if they go and borrow, which they may not be able 
to do, but if they have $50,000 to put into that $100,000 home, 
now they have a $150,000 home. If that home is at 14 feet 
elevation and FEMA says, well, that home is supposed to be at 
16 feet elevation, therefore, it's uninsurable or difficult to 
insure, what we call B paper in the insurance market. Bankers 
in our community have already said that they're not going to 
finance homes that are below the FEMA base floor elevations.
    So if a home can't be sold to someone for anything other 
than cash, if someone wants to buy that $150,000 home but they 
have to pay cash for it, they can't borrow money to get it, 
then that home just depreciated the day that decision was made. 
And that home now is probably a $50,000 or $60,000 home.
    Senator Coburn. One other point I just want to comment on. 
People from all across the country, including people from 
Oklahoma, were down here helping communities. There's no 
question this country cares about the people who received the 
brunt of this storm. There's no question about it. But one of 
the things you said, Mayor Warr, that concerns me a little bit 
is that everyone outside of the flood plains, ``should be 
covered for their loss whether they had insurance or not.''
    And the problem that I have with that statement is that 
sets a tremendous precedent for anything else that ever happens 
again in this country. And we have to look forward to the 
generations that follow us. And does there not have to be a 
certain component of personal accountability? There's no 
question this was catastrophic. We as citizens of this country 
want to help everybody get back on their feet and do the right 
thing. But a blanket statement that says--because the next time 
something--a tornado hits Oklahoma and 5,000 homes, we're going 
to have somebody say, Well, we did it in Mississippi, we did it 
in Louisiana. I didn't have insurance for tornadoes, so you got 
to cover me. And so there's this realistic problem that we're 
going to have to face, which is what percentage is incumbent 
upon you all, what percentage is incumbent on the rest of us in 
the country to help you. And I agree with your statement, Mayor 
Favre, that it does cost across the country, but not to the 
degree that we've seen here. Tornadoes are terrible and have 
killed a lot of people in Oklahoma along with massive 
destruction, but nothing like what has happened here. And so 
that's a question we're going to have to wrestle with that is 
important for the future, because we are going to set an 
absolute precedent, $150,000 on your home.
    Mayor Warr. It is an incredible precedent, and I have 
shared your concern. I toil with it continuously, but--and it's 
a dangerous precedent, but this is a very unprecedented event. 
And the reality of it is, as Congressman Taylor's comment about 
creating natural disaster coverage rather than flood coverage, 
and just anything that's covered under that is something that 
we all share in the overall payment of as we insure ourselves, 
I think that's the role that we must play.
    This is so far off the realm of what is precedented and 
practical. People's lives will be destroyed. Their nest egg 
that they've worked all their lives to pay for will become 
valueless if we don't step in place and make them whole or do 
everything we can to do so. And the CDBG funding that you all 
were gracious enough to grant to the Governor, I believe, is 
the best tool or mechanism for that. It may possibly need 
additional funding to do.
    Mr. Taylor. Doc, if I may. Having made this pitch to 
Senators Lott and Cochran, and Senator Lott introduced a 
companion bill, first, you will have to have had homeowner's 
insurance to show that you were trying to protect yourself, but 
something you didn't anticipate happened. The second thing is, 
it will require those people who accept this money, as a 
condition of their contract, to participate in the Federal 
Flood Insurance Program from then on. That piece of property, 
no matter who owns it, has to participate as a part of that 
contract. So I understand your concerns. I share your concerns. 
But we're taking steps trying to help those people who did try 
to protect themselves and see to it that they're protected in 
the future.
    Senator Collins. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman. I know that we're 
overscheduled here, so I'll try to keep my questions fairly 
brief.
    Let me just say this, and if someone mentioned this--I had 
to take a couple of phone calls a minute ago. But if someone 
mentioned this, I missed it. But in Washington our perception 
is that there were really three great heroes down here in 
Mississippi and Louisiana. One is the Coast Guard. You all 
agree with that, the Coast Guard did a great job?
    Mayor Warr. Yes.
    Mayor Favre. Yes.
    Senator Pryor. Second is the National Guard did a fantastic 
job.
    Mayor Warr. Yes.
    Senator Pryor. And third is the faith-based community.
    Mayor Warr. Absolutely.
    Senator Pryor. We understand and, again, in this area it 
was mostly church organizations, the faith-based community, 
with the Coast Guard and the National Guard who really stepped 
up and really did everything they possibly could do to meet the 
needs for the people down here in this area. So I just want to 
acknowledge them today because they've done great things.
    Let me just, if I may, start with you, Congressman Taylor. 
And that is, you mentioned hurricane insurance or maybe 
catastrophic insurance or something like that.
    And I really do hope that when we go back to Washington we 
will this spring, this year at some point, really try to get a 
handle on that because I think you're so right. I think you're 
touching on something there that is such a critical need, 
that's really been a need for a long time, but you just need it 
on such a massive scale right now. So I hope you'll work with 
Senators and Congressmen to try to get that done. I'll be glad 
to try to help in some way, maybe help shape that in some way. 
Just as you've been talking Senator Landrieu and I have been 
discussing a little bit and, of course, she has a great 
perspective on it from her State.
    And the other thing you mentioned is communication. FEMA 
just wasn't ready on communication. I think FEMA is probably 
the best agency for that, given the fact that they're the 
disaster control people and communication systems do go down in 
disasters. And they should be ready with a great communication 
plan. And one of the important things about communication is 
information. The fact that you can share information and you 
know what's going on, you know where people are injured, you 
know where the water is or whatever the case may be, but 
information acknowledges power in that type of situation.
    And one of the things that I just want to share with the 
Committee is that in Arkansas, you mentioned that we had so 
many people from Louisiana and Mississippi in Arkansas. We did 
have tons for a short period of time. We still have quite a few 
now. But is the--FEMA, I believe it was--I know it was FEMA, 
but I believe it was 4 o'clock in the afternoon a group of 
folks from New Orleans were supposed to fly in to Fort Chaffee. 
It was a processing center. And then they'd be distributed from 
there. Well, the governor is there, the National Guard is 
there, everybody is there ready to receive. And they wait and 
wait and wait and wait, and they never show up.
    And finally at like 2 o'clock in the morning, they show up. 
And every time the State tried to contact FEMA, every bit of 
information they tried to get out of FEMA was wrong. And it was 
just so frustrating. And, personally, I think there's no excuse 
for that. And, again, I think it's just another example of how 
in this Committee we need to be very focused on fixing the 
problem. Not to overreact, but fix the problem. And it's so 
fixable in my view.
    And the last thing I want to say is I think everybody on 
this Committee is coming to realize, if we don't realize 
already, just the economic devastation that we're talking about 
for this part of the country. And for most people, if they're 
like me and probably most of us here, our biggest asset is our 
home. And if we can't get insurance, we can't get financing.
    If the value of our home goes down overnight by 20 percent, 
50 percent, 70 percent, whatever it is, if you totally lost 
your home, it is devastating to a family. And I don't know 
exactly right now, I can't tell you right now exactly what the 
Federal response should be in order to help create or re-
establish stability in that market, but I'd love to hear from 
you all on that and what our appropriate response, what our 
best response is to try to re-establish the stability in the 
housing market.
    Do you all have any comments on that now?
    Mayor Warr. I'd love to speak to that.
    That's something that I've been very concerned with. The 
first thing that you should absolutely do is take the cap off 
the flood insurance and let people buy however much they need. 
And the most important thing that we understand is we have to 
maintain the ability to insure any--the new flood plain numbers 
may be ideal. And for new construction, anyone would be wise 
and doing themselves an injustice if they don't build to those 
numbers. But there are thousands and thousands of homes that 
have been there for many years, decades, that have never 
flooded before. And if those homes cannot be insured fully as A 
paper in the insurance market, then we've just done exactly 
what you say, then we've greatly diminished the value of those 
homes. So we need to make sure that flood insurance remains 
available readily for preexisting structures that remain below 
the base floor elevations recommended by FEMA.
    Mr. Taylor. Senator, a quick observation. Natural Hurricane 
Hunters out at Keesler Air Force Base and the National Weather 
Service pegged the storm exactly where it was going to hit, 
when it was going to hit, and how bad it was going to be. And 
our local first responders, our policemen and firemen, many of 
whom lost their own houses, those folks stayed on the job for 
like a month. They were absolutely phenomenal. And, again, I 
appreciate your mentioning everyone else, but they need to be 
recognized as well.
    Senator Collins. Senator Landrieu.
    Senator Landrieu. Yes. Just to conclude, I want to thank 
Senator Dayton for his compliments, but I also want to say it's 
really been a team effort with our Mississippi, Louisiana, 
Texas delegations. Gene, you've been phenomenal as well as the 
Senators from this State and the other Congressional Members. 
It's been really tough, but I can say we're all going to 
continue to work together. This Congressman almost spent the 
night in a tent outside of the Capitol to prove a point that 
his people are really living in a place in a way that they 
cannot sustain over time and how urgent it is for us to move 
forward.
    Mayors, thank you for your extraordinary work in speaking 
the truth about how you can't have a city without a people, you 
can't have people without a city. And we've got to really honor 
that balance between the public and the private sector. And I'm 
not sure we've done a good enough job of that.
    Madam Chairman, for the record, I'd just like to put in the 
record, if it hasn't been, that we lost 28,000 homes in Florida 
in Andrew in 1992, which was the worst storm to hit America, 
but we've lost 65,000 homes in Mississippi, we've lost 215,000 
homes in Louisiana from Katrina alone. That's not counting 
Rita, which also hit the western side of Louisiana and the 
central side of Louisiana and Texas. So when Senator Pryor 
talks about how you restore equity, equity means hope for low, 
middle class, and all classes of people to restore their homes. 
In addition, for the record, we lost 18,000 businesses in 
Louisiana, 2,000 businesses in Mississippi.
    And in some situations, these families lost their church, 
their home, their school, and their business all in one 
weekend. That is the truth for many Gulf Coast families. Now, 
our churches are coming back. Our schools are coming back. But 
these problems of insurance, flood levels, who gets financing, 
how we get peoples' equity back to them so they can send their 
kids to college and retire decently after a long life of work 
is a very urgent matter.
    So I don't want to ask any more questions other than to 
thank Gene Taylor for his extraordinary work on coastal issues 
for many years, including coastal restoration, coastal erosion.
    And the final thing I'll say, as we restore our coast, 
which is America's coast, the wetlands, it protects not just 
Louisiana, but it protects Mississippi. Its biggest protection 
to Waveland, to Biloxi, to the Gulf Coast, protects us from 
these storms.
    We've let it erode, Madam Chairman, and I hope that we can 
really focus on that as well, which is not the subject of this 
Committee, but you've been very generous in your time to let me 
say that.
    Senator Collins. Thank you.
    I want to thank all of our witnesses today. We're about an 
hour behind schedule, and we have people waiting for us in 
Louisiana, so we are going to make a pretty quick exit, but we 
stayed because you had so much to tell us. It was so valuable. 
You've helped increase our understanding greatly, and I thank 
you very much for being here today.
    This hearing is now adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 26747.001

[GRAPHIC] [TIFF OMITTED] 26747.002

[GRAPHIC] [TIFF OMITTED] 26747.003

[GRAPHIC] [TIFF OMITTED] 26747.004

[GRAPHIC] [TIFF OMITTED] 26747.005

[GRAPHIC] [TIFF OMITTED] 26747.006

[GRAPHIC] [TIFF OMITTED] 26747.007

[GRAPHIC] [TIFF OMITTED] 26747.008

[GRAPHIC] [TIFF OMITTED] 26747.009

[GRAPHIC] [TIFF OMITTED] 26747.010

[GRAPHIC] [TIFF OMITTED] 26747.011

[GRAPHIC] [TIFF OMITTED] 26747.012

[GRAPHIC] [TIFF OMITTED] 26747.013

[GRAPHIC] [TIFF OMITTED] 26747.014

[GRAPHIC] [TIFF OMITTED] 26747.015

[GRAPHIC] [TIFF OMITTED] 26747.016

[GRAPHIC] [TIFF OMITTED] 26747.017

[GRAPHIC] [TIFF OMITTED] 26747.018

[GRAPHIC] [TIFF OMITTED] 26747.019

[GRAPHIC] [TIFF OMITTED] 26747.020

                                 <all>

</pre></body></html>
